<html>
<title> - PENDING NOMINATIONS</title>
<body><pre>[Senate Hearing 109-394]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-394
 
                          PENDING NOMINATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 29, 2005

                               __________

       Printed for the use of the Committee on Veterans' Affairs


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate








                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

25-789                 WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001








                     COMMITTEE ON VETERANS' AFFAIRS

                    Larry E. Craig, Idaho, Chairman
Arlen Specter, Pennsylvania          Daniel K. Akaka, Ranking Member, 
Kay Bailey Hutchison, Texas              Hawaii
Lindsey O. Graham, South Carolina    John D. Rockefeller IV, West 
Richard Burr, North Carolina             Virginia
John Ensign, Nevada                  James M. Jeffords, (I) Vermont
John Thune, South Dakota             Patty Murray, Washington
Johnny Isakson, Georgia              Barack Obama, Illinois
                                     Ken Salazar, Colorado
                  Lupe Wissel, Majority Staff Director
               D. Noelani Kalipi, Minority Staff Director

















                            C O N T E N T S

                              ----------                              

                           September 29, 2005
                                SENATORS

                                                                   Page
Craig, Hon. Larry E., Chairman, U.S. Senator from Idaho..........     1
Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     3
Hutchison, Hon. Kay Bailey, U.S. Senator from Texas..............     5
Burr, Hon. Richard, U.S. Senator from North Carolina.............     5
Salazar, Hon. Ken, U.S. Senator from Colorado....................     6
Obama, Hon. Barack, U.S. Senator from Illinois...................     7
Specter, Hon. Arlen, U.S. Senator from Pennsylvania..............     7

                               WITNESSES

Tuerk, William F., Nominee to be Under Secretary for Memorial 
  Affairs, U.S. Department of Veterans Affairs...................     9
    Prepared statement...........................................    11
    Questionaire.................................................    13
    Response to written questions submitted by:..................
        Hon. Larry E. Craig......................................    35
        Hon. Daniel K. Akaka.....................................    37
Henke, Robert J., Nominee to be Assistant Secretary for 
  Management, U.S. Department of Veterans Affairs................    38
    Prepared statement...........................................    40
    Questionaire.................................................    42
    Response to written questions submitted by:..................
        Hon. Larry E. Craig......................................    47
        Hon. John D. Rockefeller IV..............................    47
Molino, John M., Nominee to be Assistant Secretary for Policy, 
  Planning, and Preparedness, U.S. Department of Veterans Affairs    48
    Prepared statement...........................................    49
    Questionaire.................................................    51
    Response to written questions submitted by:..................
        Hon. Larry E. Craig......................................    57
        Hon. Daniel K. Akaka.....................................    58
Mondello, Lisette M., Nominee to be Assistant Secretary for 
  Public and Intergovernmental Affairs, U.S. Department of 
  Veterans Affairs...............................................    58
    Prepared statement...........................................    60
    Questionaire.................................................    62
    Response to written questions submitted by:..................
        Hon. Larry E. Craig......................................    67
        Hon. Daniel K. Akaka.....................................    67
Opfer, George J., Nominee to be Inspector General, U. S. 
  Department of Veterans Affairs.................................    68
    Prepared statement...........................................    69
    Questionaire.................................................    71
    Response to written questions submitted by:..................
        Hon. Larry E. Craig......................................    76
        Hon. Daniel K. Akaka.....................................    77










                          PENDING NOMINATIONS

                              ----------                              


                      THURSDAY, SEPTEMBER 29, 2005

                               U.S. Senate,
                    Committee on Veterans' Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:00 a.m., in 
room SR-418, Russell Senate Office Building, Hon. Larry E. 
Craig (chairman of the committee) presiding.
    Present: Senators Craig, Specter, Hutchison, Burr, Akaka, 
Obama, and Salazar.

           OPENING STATEMENT OF HON. LARRY E. CRAIG, 
                    U.S. SENATOR FROM IDAHO

    Chairman Craig. Good morning, ladies and gentlemen. The 
Committee on Veterans' Affairs will now come to order.
    This morning we will receive testimony from five 
individuals who have been nominated by the President of the 
United States to serve in posts at the U.S. Department of 
Veterans Affairs: William Tuerk, whom many of us know, 
nominated to serve as Under Secretary for Memorial Affairs; 
Robert Henke, nominated to serve as Assistant Secretary for 
Management; Lisette Mondello, nominated to serve as Assistant 
Secretary for Public and Intergovernmental Affairs; John 
Molino, nominated to serve as Assistant Secretary for Policy, 
Planning, and Preparedness; and George Opfer, nominated to 
serve as Inspector General.
    Well, first and foremost, congratulations to all of you for 
your nominations, and welcome to the committee. Also, I want to 
welcome all of your families--I have had a chance to meet some 
of them--and your friends who are accompanying you here today. 
I look forward to you taking the opportunity to introduce them 
to the committee.
    I believe Senator Hutchison will be joining us in a few 
minutes to introduce you, Lisette, and so I will move on with 
the introductions of our other nominees. However, I do want to 
comment on some of the important responsibilities in this 
process that each of the nominees will undertake if confirmed. 
I also want to introduce Mr. Tuerk, Chief Counsel of the 
committee, as a valued member of our staff.
    After earning his undergraduate degree from the University 
of Notre Dame, Mr. Tuerk served as a military policeman in the 
Army from 1971 to 1973. He then earned a law degree from George 
Washington University. Mr. Tuerk began his long and 
distinguished career in service of veterans in 1985, when he 
served on the health care legal staff of VA's General Counsel. 
In 1991, he joined the Veterans' Affairs Committee where he has 
served as the Republican General Counsel, the Republican Chief 
Counsel and Staff Director, and currently is our Chief Counsel.
    I am extremely pleased that Bill, who has served this 
committee with distinction for 14 years, has been nominated to 
serve our Nation's veterans as the Under Secretary for Memorial 
Affairs. I also understand the personal circumstance in your 
family at this moment, and we certainly wish your wife the 
very, very best.
    The incumbent is responsible for overseeing our National 
Cemetery Administration, which operates and maintains our 
national cemeteries and administers programs that honor our 
deceased veterans. Especially during a time of war, when we 
have fallen soldiers returning from the battlefield, we must 
ensure that our Nation's heroes are laid to rest on sacred 
grounds befitting of their service and their sacrifice. We must 
also ensure that their grieving families receive the respect 
and sympathies of a grateful Nation.
    Bill, these are important responsibilities, and I want to 
thank you for your willingness to undertake them and for your 
professionalism and the work that you must have before you at 
this time.
    We will also hear today from Robert Henke, the nominee for 
Assistant Secretary for Management. Mr. Henke served in the 
Navy from 1988 to 1992, including combat service during 
Operation Desert Shield and Desert Storm, and he continues to 
serve in the Navy Reserve. Mr. Henke is a former staffer for 
the Senate Appropriations Committee and currently serves as the 
Principal Deputy Under Secretary of Defense for the Department 
of Defense. Of the many roles the Assistant Secretary for 
Management assumes, perhaps the most challenges is serving as 
VA's chief budget officer.
    Mr. Henke, as we discussed at meetings in my office 
earlier, if confirmed, you will play a critical role in 
assuring that Congress is provided with timely and accurate 
information regarding VA's funding requirements so that we will 
not again be caught off guard by a shortfall in VA's budget.
    As I have stated previously, I will be requiring VA to 
provide quarterly updates as to its financial picture, and I 
will expect complete candor from VA in providing those updates. 
Mr. Henke, thank you very much for your willingness to 
undertake this challenging role. I guess the most and the least 
I can say is good luck.
    [Laughter.]
    Chairman Craig. Also joining us today is John Molino, the 
nominee for Assistant Secretary for Policy, Planning, and 
Preparedness. Mr. Molino served in the Army from 1974 to 1995 
and is the recipient of numerous awards, including the Army 
Commendation Medal. After retiring from the Army, he served as 
the Director of Government Affairs for the Association of the 
U.S. Army and as legislative assistant to Senator Dan Coats. 
Currently, he is the Deputy Under Secretary of Defense for 
Military, Community, and Family Policy. Ambassador Coats, 
Senator Coats, Congressman Coats, has been a personal friend of 
mine for a good long while.
    Among a wide range of other functions performed by the 
Assistant Secretary for Policy, Planning, and Preparedness, the 
incumbent is responsible for ensuring that VA has emergency 
preparedness policies in place across the Nation. As 
demonstrated by the decisive and heroic actions of VA's 
personnel in dealing with Hurricanes Katrina and Rita, 
preparedness is extremely important to the safety and well-
being of VA's patients and employees, as well as those in 
surrounding communities. I trust you understand VA's 
responsibility there and will continue to perform admirably in 
that situation. A lot of untold stories of sacrifice of VA 
staff and personnel and a tremendous record coming out of those 
very difficult situations in the Gulf area.
    Now turning to our nominee for Assistant Secretary of 
Public and Intergovernmental Affairs, Lisette Mondello, the 
incumbent in this position will play an important role in 
fostering VA's reputation as a leader in health care services 
and, more importantly, will be responsible for ensuring that 
all veterans have access to information about benefits and 
services that VA provides.
    Mrs. Mondello, welcome, and thank you very much for the 
work you will do.
    Last, we will hear from George Opfer, the nominee for 
Inspector General. From 1996 to 2004, Mr. Opfer worked for the 
U.S. Secret Service, retiring as an Assistant Director of the 
Office of Investigation. He then served as Inspector General 
for the Federal Emergency Management Agency and is currently 
the Deputy Inspector General for the Department of Labor.
    The VA Inspector General is responsible for inspecting VA's 
programs, recommending policy to promote economy and 
efficiency, and to seek to prevent and detect criminal 
activities, waste, abuse, and mismanagement. In a time when the 
budget is so tight, it is more important than ever that the 
Inspector General vigilantly reviews VA's programs to find ways 
to increase efficiencies and to ensure that taxpayer money is 
being well spent.
    George, with your extensive investigative background, I 
fully appreciate that you will be up to the challenge. I look 
forward to hearing from you, and, again, we want to thank you 
for your willingness to serve our Nation's veterans.
    Both the Ranking Member and Senator Hutchison are not here 
yet--oh, Danny has just arrived, so let me allow the Ranking 
Member to settle in, and we will ask him if he has any comments 
before we administer the oath and hear from all of you.
    Senator Akaka.

          OPENING STATEMENT OF HON. DANIEL K. AKAKA, 
                    U.S. SENATOR FROM HAWAII

    Senator Akaka. Thank you so much, Mr. Chairman. As I 
mentioned before and I continue to tell you, I enjoy working 
with you on the Committee on Veterans' Affairs.
    Today the committee has the pleasure of examining five 
pending nominations for critical positions at the Department of 
Veterans Affairs, and I have had the opportunity to visit the 
nominees before their hearing. These vacant positions are vital 
to VA's mission and must be filled with qualified, competent 
individuals.
    Mr. Chairman, I am confident that my colleagues on the 
committee will give the thoughtful consideration that these 
nominations deserve. I would also like to welcome the witnesses 
and their families who are here to this hearing.
    Mr. Bill Tuerk has been nominated to be Under Secretary for 
Memorial Affairs. The Under Secretary for Memorial Affairs 
oversees the National Cemetery Administration, which is 
responsible for honoring veterans with final resting places in 
national shrines that commemorates their service to their 
Nation. As we all know, Bill's face is a familiar one in this 
committee. He certainly has a wealth of experience, and I must 
say this is a good time of the year for Bill Tuerk, nominated 
for a prestigious position at VA, and his beloved Notre Dame 
football team is off to a good start.
    [Laughter.]
    Senator Akaka. Mr. Robert Henke is nominated for the 
position of Assistant Secretary for Management. If confirmed, 
Mr. Henke would oversee all resource requirements, development 
and implementation of agency performance measures and financial 
management activities relating to VA programs and operations. 
This position plays a major role in the budgeting process. I 
look forward to discussing with Mr. Henke ways to prevent any 
repeats of the budget shortfall that we had earlier this year.
    Mr. George Opfer is nominated to be Inspector General for 
the Department. In my time in the Senate, I have worked hard to 
ensure transparency in Government. Currently, the VA IG is 
conducting an investigation that I requested on enrollment. I 
urge you, Mr. Opfer, to give this investigation the attention 
that it deserves.
    Mr. John Molino is nominated for Assistant Secretary for 
Policy, Planning, and Preparedness, and I will be interested to 
hear Mr. Molino's comments on VA disaster relief in light of 
the recent national disasters. I know Mr. Molino from his 
tenure at DOD, where I worked closely with him on financial 
literacy issues. I am sure Mr. Molino and I can build upon this 
relationship to work together in his new position.
    Ms. Lisette Mondello is nominated for Assistant Secretary 
for Public and Intergovernmental Affairs. This position plays 
an integral role in VA's public relations. While VA has made 
tremendous strides in public relations, we all know that some 
do not hold VA in the highest regard. I urge Ms. Mondello--and 
we had a good discussion--to make every effort to be open and 
honest with the public about VA issues to ensure transparency.
    Mr. Chairman, I would like to make a general comment to all 
nominees. In order for this committee to properly conduct its 
oversight role, we need timely and accurate information from 
VA. As you all assume your new positions, I urge you to develop 
relationships with the committee members and staff so that both 
VA and this committee can better serve the veterans of this 
great Nation.
    Mr. Chairman, I look forward to their testimony and this 
confirmation hearing, and I thank you very much for your 
leadership.
    Chairman Craig. Senator Akaka, thank you very much for 
those comments, and I think they are very instructive to all of 
the nominees as we work with them in future days.
    I had referenced that Senator Hutchison would be here to 
make opening introductions of Ms. Mondello, so let me turn to 
Kay at this moment.
    Kay.

        OPENING STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you. I am very pleased to be here 
to introduce my friend and fellow Texan, Lisette Mondello. She 
is now senior advisor to the Secretary of Education, and before 
that, for 4 years she was my Director of Communications in my 
Senate office. She did a great job, as she does in every 
position that she has ever held.
    I think the experience that she has had both in the Senate 
office and at the Secretary of Education's office will really 
help her with this very important job at the Department of 
Veterans Affairs. I think what Senator Akaka said is right. We 
need someone who can communicate the many good things that are 
being done at Veterans Affairs, and there is so much.
    One of the best things has just happened during this 
tragedy of hurricanes in Louisiana, Mississippi, Alabama, and 
Texas, where not one veteran in a Veterans Affairs care 
hospital or clinic was injured or in any way hurt because of 
being left or not treated. The Veterans Affairs Department even 
opened its doors when they had clinics open to anyone who 
walked in, not just veterans. They did not refuse service to 
anyone, so that needs to be out there and it needs to be told. 
If anyone can do it, it is Lisette Mondello.
    Lisette received her bachelor of arts degree from Trinity 
University in San Antonio, TX, the same university as my 
colleague, John Cornyn, graduated from. She obtained a 
certificate in finance from Southern Methodist University in 
Dallas, Tx.
    Lisette Mondello will do a great job, and I hope that she 
will be confirmed. I am not as familiar with all of the rest of 
you, and I know all of you will also serve our Veterans Affairs 
Department well. But I am happy to introduce Lisette Mondello.
    Thank you.
    Chairman Craig. Kay, thank you very much, and for all of 
you nominees, while Kay serves on this authorizing committee, 
you are aware that she chairs the MilCon and VA appropriations 
subcommittee.
    Senator Hutchison. I am sure they would never have 
thought----
    [Laughter.]
    Chairman Craig. Well, we just want to make sure that you 
keep a close, direct, and clear relationship with the chairman 
of these committees.
    Let me ask my other colleagues that have joined the 
committee today if they have any comments.
    Senator Burr.

            OPENING STATEMENT OF HON. RICHARD BURR, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. Mr. Chairman, I thank you for assembling this 
hearing. I thank the nominees for their attendance. I have had 
an opportunity to meet with each and every one. Not only do 
they bring with them the qualifications, I found it refreshing 
that they brought an eagerness to work at the VA. I think it is 
safe to say that the VA is not the most glamorous Government 
job that you can have, but it is incredibly important because 
it brings with it the responsibility to fulfill the promise of 
a Nation. I would encourage this committee, even though we 
don't have it scheduled, that we schedule their confirmation 
process, the markup, very, very quickly and that we expedite 
these nominations to the floor so that they can begin their 
service.
    I thank you.
    Chairman Craig. Senator Burr, thank you.
    Senator Salazar.

   OPENING STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR FROM 
                            COLORADO

    Senator Salazar. Thank you very much, Chairman Craig and 
Senator Akaka. Your leadership on this committee and your work 
in the Senate make me a very proud member of this chamber, and 
I thank you for your leadership and your mentorship.
    I want to thank the nominees as well for your service to 
our country and to congratulate your families. I know many of 
your families are here, and this is an important day in the 
life of each of your families.
    To Bill Tuerk, we are going to miss you. I have only been a 
Member of the Committee for a few months, but I know that your 
service here is legendary. I know you have served Senator Craig 
and Senator Specter before him and all the Members of this 
Committee extremely well, and I know that you have been a 
tireless advocate for the veterans of our country. In your 14 
years of service, you have left a powerful legacy of good work, 
and you leave behind a talented group of individuals to carry 
on that good work. Congratulations to you and your wonderful 
family and your colleagues for the great honor that is being 
bestowed upon you.
    The most pressing challenge I believe that we will face on 
veterans issues in one way or another is the VA's budget and 
the broken planning process for that budget that we saw this 
last year. As everyone here knows, this year the VA announced 
its $1.27 billion budget shortfall, and we took action in the 
Senate, in part through the leadership of this committee, to 
rectify that problem. That announcement that the VA had that 
problem came about only a few weeks after this committee was 
told that we did not have a problem. That is going to be an 
area where the VA has to have a collective focus on that issue, 
and it is something that I raise with Secretary Nicholson when 
he and I met in private to talk about the future of the VA. 
This issue is something that will affect each and every one of 
you who is before this committee this morning.
    The appointments we are examining today will have a huge 
impact on the lives of all of our Nation's veterans. It is 
clear from your resumes that you are all well qualified. It is 
also clear that you need to prove to this committee and to the 
Nation's veterans that you can be independent in your thinking 
and that you will stand up for the needs of veterans in our 
country. I have no doubt that you will do that, and I look 
forward to a speedy confirmation process for all of you for 
these positions.
    Thank you very much. Thank you, Mr. Chairman.
    Chairman Craig. Ken, thank you very much.
    Senator Obama, any opening comments?

            OPENING STATEMENT OF HON. BARACK OBAMA, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Obama. Thank you very much, Mr. Chairman, Ranking 
Member Akaka. Thanks for your good works day in and day out, as 
well as holding this hearing today.
    I will be very brief. I congratulate all of you for your 
nomination. Mr. Tuerk, in particular, congratulations to you 
for the outstanding work that you have done on this committee, 
and we are very proud of you. I think everybody on the 
committee--although, like Senator Salazar, I have not been on 
the committee long, everybody has been extraordinarily 
impressed with your knowledge and hard work and regard for 
veterans. I am not saying that, you know, the skids are greased 
for you, but I think you are in pretty good shape here.
    [Laughter.]
    Senator Obama. All of you are accepting a call to public 
service. Many of you have been involved before. I appreciate 
that very much. Obviously, over the last several weeks, I think 
there has been a lot of attention focused on appointees to the 
Federal Government, and, frankly, I think all of us are aware 
of the fact that although sometimes people who work for the 
Federal Government are dismissed as bureaucrats or what have 
you, it turns out that having qualified people in their jobs 
who take their jobs seriously makes an enormous difference. In 
some cases, it can be a life or death situation.
    I appreciate all of you participating in this process. I 
will have a few questions for some of you in terms of just 
talking about how we can make sure that not only the budget 
process for the VA system is working the way it needs to, but 
that we have a customer-oriented VA in which the bias is 
towards helping as opposed to simply saving money. I am going 
to want to hear some ideas from you about how you intend to 
discharge your duties.
    With that, thank you very much, Mr. Chairman.
    Chairman Craig. Senator Obama, thank you very much.
    We have been joined by the former chairman of this 
committee, Senator Arlen Specter, who now chairs the Judiciary 
Committee and is just coming off from a 2-week vacation.
    [Laughter.]
    Chairman Craig. I understand he will resume his 
responsibilities on that committee. Anyway, Senator Specter, 
thank you very much for coming by. I know you wanted to be here 
and I am glad you are here to make comments about a former 
staffer of yours, Bill Tuerk.

           OPENING STATEMENT OF HON. ARLEN SPECTER, 
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Specter. Well, thank you very much, Mr. Chairman, 
and I congratulate you, Senator Craig, on the outstanding job 
you are doing in taking over the chairmanship of this committee 
and your work with Senator Akaka on a very distinguished 
committee doing very important work for America's veterans. 
There is no higher calling. After the very heavy workload of 
the Veterans Affairs Committee, it was a relief to take over 
the chairmanship of the Judiciary Committee.
    [Laughter.]
    Senator Specter. Where it is practically a full-time 
vacation.
    I can only be with you for a few minutes because we are now 
in the process of final statements on the confirmation of Judge 
Roberts to be Chief Justice, and as you all know, we will be 
voting on him at 11:30. Senator Leahy is scheduled to speak at 
10:30 and I at 10:45, and then the Leaders will speak, and it 
is really a historic day for the 17th Chief Justice of the 
United States.
    The work of the Veterans Affairs Committee, notwithstanding 
the Judiciary Committee and notwithstanding Chief Justice, is 
second to none in taking care of the veterans of America. I 
know it is a very dedicated committee.
    I am delighted to see Bill Tuerk up for a very important 
position as Under Secretary for Memorial Affairs. He will have 
the obligation to oversee the National Cemetery Administration, 
125 national cemeteries, 33 soldiers' lots, and that raises 
very, very delicate questions to care for the memory of 
veterans and to accommodate families. I have seen the issue 
across the country, and we are in the midst now of trying to 
find a national cemetery location in southeastern Pennsylvania. 
You see the emotion when people are faced with a locale. Where 
will their loved ones be interred? What access will they have 
to visit them? It takes a very, very sensitive person.
    Bill Tuerk has an extraordinary background. His work with 
the VA goes back 20 years where he was an attorney in the 
General Counsel's office. In 1991, I was fortunate enough to 
hire Mr. Tuerk to serve as my General Counsel when I was 
Ranking Member, and he has been Chief Counsel, Staff Director, 
and taken on very, very heavy responsibilities.
    We are all concerned about Bill's wife, Vivian, who has had 
her own problems. It is unfortunate she could not be with Bill 
today, and all of us, for this very significant event in a very 
distinguished career, but Bill's children are here. I have 
every confidence he will be approved by this committee and by 
the full Senate and do an outstanding job in the service of 
America's veterans.
    Thank you very much, Mr. Chairman, for recognizing me 
immediately upon my arrival, and I appreciate the courtesy.
    Chairman Craig. Chairman Specter, thank you, and thank you 
for you stewardship of this committee. Most importantly, thank 
you for the very respectful and honorable way you have handled 
the Judiciary Committee over the last several weeks under very 
challenging circumstances. You are right, we are engaged in a 
very historic time here as new people come to the Court that 
will ultimately shape the Court for a good number of years to 
come.
    Thank you for your leadership.
    Senator Specter. Thank you, Larry.
    Chairman Craig. Now we turn to all of you, and if you would 
please stand with me and raise your right hand. Do you solemnly 
swear or affirm that the testimony you are about to give the 
committee at this hearing shall be the truth, the whole truth, 
and nothing but the truth, so help you God?
    Mr. Tuerk. I do.
    Mr. Henke. I do.
    Mr. Molino. I do.
    Mrs. Mondello. I do.
    Mr. Opfer. I do.
    Chairman Craig. Thank you. Please be seated.
    Bill, we will now turn the floor to you, and, of course, we 
would ask all of you who have brought family, if you so choose, 
to introduce those who have come with you.
    Bill Tuerk.

 STATEMENT OF WILLIAM F. TUERK, NOMINEE TO BE UNDER SECRETARY 
   FOR MEMORIAL AFFAIRS, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Mr. Tuerk. Thank you, Mr. Chairman.
    Chairman Craig, Ranking Member Akaka, Senator Burr, Senator 
Obama, Senator Salazar, thank you for honoring me with the 
opportunity to appear before this committee. As you know, I 
have been nominated by the President to serve as Under 
Secretary for Memorial Affairs at VA. After all these years of 
working in this room, I am thrilled to be sitting at this end 
of the table.
    If I may add a minor aside. I will say to all my fellow 
staff members here, it looks a whole lot different from this 
side of the room.
    [Laughter.]
    Mr. Tuerk. What a difference 20 feet makes.
    I appreciate your welcome, and I appreciate the kind 
comments of all of the Members of this Committee, particularly 
the kind comments of a personal nature that a number of you 
have made to me.
    Before I get into the substance of my statement, there are 
some people who are responsible for me being here, and I have 
to start by thanking them. First, I have to thank the President 
of the United States for nominating me to serve in this high 
position. Equally, I have to thank Secretary Jim Nicholson. 
Secretary Nicholson recommended this appointment to the 
President. Without that, obviously I would not be here.
    There are two other high officials within VA that I want to 
recognize. Without their support, I would not be here. One of 
them is with us. He is the Honorable Gordon Mansfield, the 
Deputy Secretary of Veterans Affairs, who is seated behind me. 
The other gentleman, who is a senior official at VA that I want 
to recognize, is General Mick Kicklighter, Secretary 
Nicholson's Chief of Staff. Either of these men could have 
killed this idea very quickly by, for example, damning me with 
faint praise. I appreciate their support.
    Finally, I have to thank two members of this body: first, 
the former chairman, Senator Specter, who made a statement a 
moment ago. It is he who hired me here in 1991. It is he who 
gave me the opportunity to be General Counsel, Chief Counsel, 
and Staff Director of this committee. It is he who first urged 
the President to consider my qualifications for high 
appointment. I am very much indebted to him.
    The other member of this body that I want to express my 
appreciation to is the Chairman. He has been very supportive of 
me during his brief but very distinguished tenure as Chairman, 
and I thank you, sir, for that.
    I know it is customary for nominees at this point to also 
thank their spouses and family members, and I am not going to 
depart from that tradition. As has been alluded to, my wife, 
Vivian, isn't able to be here today. She would be here if she 
could be here. She has supported me at every step in my career, 
starting in the second year of law school. I am very much 
indebted to her for her support, but that is a minor reason for 
my devotion to her. The major reason--the major two reasons--
are present here in the room, and they are my daughter, Jackie, 
and my son, Peter. They are here, and since, Mr. Chairman, you 
gave us the opportunity to introduce our family members, I 
would like to do so. They are seated right here.
    Chairman Craig. Please. Thank you. Nice to see you both.
    [Applause.]
    Mr. Tuerk. Now we get to the substance. I am here this 
morning, Mr. Chairman, Ranking Member Akaka, and Members of the 
Committee, to ask for your recommendation to the Senate that I 
be approved to this position. My qualifications for this job 
stem greatly, though not entirely, from my service in this room 
in this suite of offices, and also from my service as a lawyer 
in the Department of Veterans Affairs. In these two slots, I 
learned a lot about law and policy as it relates to veterans 
issues, but I learned a whole lot more. I learned how to be a 
team member and a team builder. I learned, especially with 
these fine people who are seated behind the table, how to 
empower staff and to trust their decisions and to trust their 
judgment. I learned the importance of garnering support across 
the political spectrum if you are going to get anything done 
around here. I learned that one must earn the trust of veterans 
and veterans service organizations, and also that that trust is 
earnable, even when you have to say no to veterans on occasion, 
so long as there is a common understanding that we share 
devotion to and respect for veterans.
    These are the lessons I want to take to VA. I have outlined 
in my prepared statement some of the things I want to 
accomplish. I want to get 11 cemeteries up, open, and operating 
before I finish. I want to re-energize VA's National Shrine 
Commitment Program. I want to enhance the State Cemetery Grant 
Program so that veterans in less urban areas can have the 
benefit of burial among their comrades in a place of honor. I 
want to leave behind a plan for the burial of my generation 
when I am gone.
    Mr. Chairman, Members of the Committee, I do not believe in 
fixing something that isn't broken. As you know, the National 
Cemetery Administration recently was awarded the highest 
customer satisfaction scores of any organization anywhere, 
public or private. Beat General Electric. Beat Federal Express. 
Beat whatever organization you think serves customers well. I 
am not going down to VA to change NCA. It doesn't need 
changing. I am going down with the idea of shepherding the 
resources that NCA has to meet future challenges, and if I am 
given that opportunity, I pledge to you that I will work 
tirelessly to earn the confidence and support of the staff down 
there, to earn the confidence and trust of veterans, and to 
earn the confidence and trust of this committee.
    I owe that to the President who nominated me. I owe that to 
the Congress that I hope will confirm me. But, most 
importantly, I owe that to veterans.
    With that, I will end my statement, and I will be happy to 
answer your questions. Thank you.
    [The prepared statement of Mr. Tuerk follows:]
 Prepared Statement of William F. Tuerk, Nominee to be Under Secretary 
       for Memorial Affairs, U.S. Department of Veterans' Affairs
    Chairman Craig, Ranking Member Akaka, and Members of the Committee: 
thank you for honoring me with an invitation to appear before the 
Committee. As you know, I have been nominated by the President to serve 
as Under Secretary for Memorial Affairs in the United States Department 
of Veterans Affairs. I am thrilled to be sitting, after all these years 
of working in this room, on this side of the table. I am more than a 
little humbled.
    Before I get into the substance of my statement, there are some 
people--people who are responsible for me being here--that I need to 
publicly thank. First, allow me to express my gratitude to the 
President of the United States, the Honorable George W. Bush, for 
nominating me to serve in this high position. Let me also thank VA 
Secretary Jim Nicholson for recommending my candidacy to the President. 
In addition, I need to express my gratitude to two senior VA officials, 
Deputy Secretary Gordon Mansfield and Secretary Nicholson's Chief of 
Staff, General Mick Kicklighter; without the support of these two 
distinguished men, I would not be here this morning. I am also indebted 
to former VA officials who I count as friends (most particularly, to 
former Secretary of Veterans Affairs Tony Principi; to former Under 
Secretary for Memorial Affairs, General Jack Nicholson; and to my boss 
at VA some years ago, former Assistant General Counsel, Audley 
Hendricks. I have been honored with the support of the senior 
Republican Member of this Committee, Senator Arlen Specter. It is he 
who bestowed upon me the privilege of serving as Chief Counsel and 
Staff Director of this Committee during his chairmanship. And it is he 
who first urged the President to consider my qualifications for a 
senior appointment in this Administration.
    Finally, Mr. Chairman, I know it is customary for nominees to thank 
their spouses, children, and other family members at this point in the 
proceedings. Mr. Chairman, my wife, Vivian, is not able to be here 
today, but she certainly would be here if she could be here. She has 
supported my career at every step of the way, but that is a minor 
reason for my devotion to her. I am most indebted to her for my 
daughter, Jackie, and my son, Peter. They are here this morning. If I 
may, Mr. Chairman, I would like to introduce them to the Committee.
    Mr. Chairman, I am here this morning to ask that this Committee 
recommend my confirmation to the Senate as a whole. My qualifications 
for service in an appointed position at VA stem greatly, but not 
entirely, from my service to veterans right here in this suite of 
offices. Here, and also as an attorney in the health care practice 
group at VA, I learned many substantive issues relating to law and 
policy that affect veterans and their survivors. But I learned more. I 
learned how to be a team member and a team builder. I learned the 
importance of garnering support across the political spectrum. I 
learned that one must earn the trust of veterans and their 
representatives, the veterans service organizations, and also that that 
trust is earnable, even by those who, at times, have to say ``no'' so 
long as there is common agreement on the fundamental worthiness of 
veterans to the Nation's respect and gratitude. In short, I think I 
learned how to get things done in Washington, and more importantly, how 
to identify the things that ought to get done in Washington.
    These are the lessons I will take to the VA, if I am confirmed. And 
there are many things, concrete things, that I intend to get done in 
the relatively short period of time that will be available to me if I 
am confirmed. First and foremost, there are 11 new cemeteries in 
various stages of development that I intend to get fully opened and 
operating before I leave VA--in Atlanta; in Detroit; in Miami; in 
Pittsburgh; in Sacramento; in Bakersfield; in Birmingham, Alabama; in 
Greenville/Columbia, South Carolina; in Jacksonville; in Philadelphia; 
and in Sarasota. I intend to find ways to enhance the VA's State 
Cemetery Grant Program so that veterans in less densely populated areas 
might better be able to gain access to burial among comrades in a place 
of honor. I hope to re-energize VA's National Shrine Commitment program 
so that veterans cemeteries might truly be monuments to the men and 
women who have served. And I intend to leave the National Cemetery 
Administration with a plan to meet the burial needs of my generation, 
and with a committed, enthusiastic, well-trained, and diverse 
workforce. It is to the accomplishment of these goals that I intend to 
devote my energies and talents if I am confirmed.
    Mr. Chairman, I do not believe in fixing that which is not broken. 
I know very well from personal experience how committed, sensitive, and 
responsive the employees of the National Cemetery Administration are. 
It's worth saying over and over again that the National Cemetery 
Administration recently earned the highest customer satisfaction scores 
ever awarded to any organization, public or private. My mission, then, 
will not be to change the National Cemetery Administration. It doesn't 
need changing. It will be to channel the exceptional capabilities and 
devotion of NCA staff to satisfy evolving needs while continuing to 
meet the superior standard that it has set for itself. And while I know 
that I am lucky, extraordinarily lucky, to have the potential 
opportunity to lead such a class organization, I also know that leading 
the Nation's recognized leader in customer service will be a personal 
challenge of the greatest magnitude. I gain confidence from the fact 
that I have experience in leading a smaller, but no less elite, staff 
(the staff of this Committee). If I have earned their trust and 
confidence, and I think I have, I think I will have a good shot of 
earning the trust and confidence of the National Cemetery 
Administration's workforce and, most importantly, the veterans and 
survivors that they serve. I give you my solemn commitment that, if my 
nomination is approved by the Committee and by the Senate, I will work 
tirelessly to earn that trust and confidence. The President, the 
Committee, and the Nation's veterans deserve no less.
    Mr. Chairman, Ranking Member Akaka, and Members of the Committee, I 
would be pleased to respond to your questions.



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



    Response to Written Questions Submitted by Hon. Larry E. Craig 
                          to William F. Tuerk
    Question 1. Last week we held a hearing on a sensitive topic, that 
is, whether capital offenders should be honored in America's national 
cemeteries. The difficulty we are now confronted with is essentially 
this: What post-service actions are so heinous that they render a 
person unfit to be buried alongside America's honored dead? Do you have 
a sense of where that line should be drawn for purposes of VA burial?
    Answer. My personal sense is that the current provisions of law 
that give rise to disqualification for burial in the Nation's veterans' 
cemeteries need to be reconsidered.
    Under current law, the following persons are barred from burial in 
the national cemeteries: (1) Individuals convicted of the ``subversive 
activity'' offenses listed in 38 U.S.C. Sec. 6105(b); and (2) Persons 
who: (a) have been convicted of a Federal capital crime for which the 
person was sentenced to death or life imprisonment; (b) have been 
convicted of a State capital crime for which the person was sentenced 
to death or life imprisonment without parole; or (c) are found, as 
specified by statute, to have committed a Federal capital crime or 
State capital crime, but have not been convicted of such crime by 
reason of such persons not being available for trial due to death or 
flight to avoid prosecution. See 38 U.S.C. Sec. 2411.
    First, I have no sense that the ``subversive activity'' 
disqualifying statute needs modification. My view is that the 
conviction of offenses against the Nation--the essence of the offenses 
outlined in 38 U.S.C. Sec. 6105(b)--ought to disqualify a veteran from 
repose among those who have defended the Nation. Persons who, in 
effect, attack this Nation should forfeit--and, to my way of thinking, 
have by their very acts forfeited--any right they might otherwise have 
earned to lie in a place of honor.
    As for the second disqualifying statute--the ``first degree 
murder'' disqualifier--my sense is that the distinctions drawn between 
Federal and State offenders merit review. To me, it makes no policy 
sense to, for example, bar a deceased veteran who was sentenced by a 
Federal court to life imprisonment and yet permit burial to a State-
convicted veteran who might technically be eligible for parole at a 
future date far outside his expected, and actual, life expectancy. 
Similarly, it makes no policy sense to me to bar a veteran who was 
sentenced by a Federal court to life imprisonment and yet permit burial 
to a veteran who, though not technically sentenced to life 
imprisonment, was sentenced to consecutive terms of imprisonment that, 
in the aggregate, far exceed the veteran's expected, and actual, life 
expectancy.
    As an attorney, I understand the difficulty in crafting statutory 
language that disqualifies all who are sentenced to prison terms that, 
in practical terms, amount to--but technically are not--life sentences 
under the laws of the various States. As a person who, in the military, 
was charged with maintaining the custody and control of prisoners, I 
appreciate the value of the possibility of parole, however remote, in 
maintaining order in a prison environment. Finally, as an individual 
who believes that nearly any criminal is capable of reform to the point 
that parole might become a correctional possibility, I think no person 
is utterly incapable of redemption. Even so, however, I believe that 
some crimes are so heinous that they ought to give rise to 
disqualification.
    In my view, conviction of a homicide offense of a degree of 
severity and aggravation that it can be punished by the maximum 
sentence that can be meted under State law (whether that sentence be 
death or life imprisonment, with or without the possibility of parole) 
should give rise to disqualification even if the court, in its 
discretion, elects to sentence below that maximum penalty. Further, I 
believe that conviction of a homicide offense or offenses by a Federal 
or a State court that yields a sentence that, in practical terms, 
precludes release during the felon's lifetime--even though that felon 
is, technically, not given a ``life sentence``--should also give rise 
to disqualification.
    Finally, I note that the Congress has made a policy decision that 
reflects the view that some criminal offenses that are not directed 
against the State are sufficiently repugnant to give rise to 
disqualification from eligibility for veterans' burial benefits. The 
Congress has, to date, identified only one crime--aggravated homicide--
that it concludes is sufficiently repugnant. In my personal view and, I 
believe, in the view of most persons, there are other crimes--e.g., 
aggravated sexual molestation or torture of a child--that are at least 
as repugnant as homicide and, by the reasoning already adopted by 
Congress, should also give rise to disqualification. I would leave it 
to the peoples' representatives, the Congress, to gauge and express the 
citizenry's outrage by identifying such crimes and adding them to the 
statutory disqualifying list. Of course, as Under Secretary for 
Memorial Affairs, I would enforce whatever prohibition from eligibility 
for burial that the Congress chooses to enact.
    Question 2. If confirmed, you will be responsible for ensuring that 
the burial prohibition law is enforced. What are your thoughts about 
the current enforcement efforts by the National Cemetery 
Administration? Do you yet have a sense of whether those efforts can be 
improved?
    Answer. It is my impression that the National Cemetery 
Administration (NCA) goes to considerable lengths to ensure that the 
statutory ban on the burial of some otherwise-eligible veterans is 
enforced. VA has promulgated detailed regulations setting forth 
procedures that will be followed by both field, and Central Office, 
officials in enforcing the burial prohibition law codified at 38 U.S.C. 
Sec. 2411. See 38 CFR Sec. Sec. 38.617, Sec. 38.618. Unlike the 
practices which, I am informed, have been adopted by Arlington National 
Cemetery (ANC) officials, VA does not passively await notification by 
Federal or State officials that an individual who seeks burial in a 
national cemetery has been convicted of a disqualifying offense and 
assume, in the absence of such notification, that every and all persons 
seeking burial must be provided burial benefits. Rather, NCA cemetery 
directors are not merely authorized to--they are required to--initiate 
an inquiry whenever they have ``reason to believe that they, the 
deceased, may have been convicted of a Federal or State capital crime. 
. . .'' See 38 CFR Sec. 38.617(e)(1). By contrast, ANC officials have 
adopted a narrower--in my opinion, an unduly narrow--interpretation of 
the 38 U.S.C. Sec. 2411 disqualification statute to the effect that 
information concerning a decedent's potential ineligibility for burial 
will be--and, as a matter of law, must be--disregarded unless requisite 
notice of such information is received from the United States Attorney 
General or an appropriate State official. See Statement by Thurman 
Higganbotham before the Senate Committee on Veterans' Affairs, 
September 22, 2005. ANC's approach surely eases administrative burden 
on cemetery officials by shifting all fact-finding and conclusion-
drawing tasks to other officials. To my way of thinking, NCA's approach 
is the one that puts into force the policies that I believe the 
Congress intended to advance in enacting section 2411. I believe that 
NCA's adoption of that policy despite the administrative burdens 
imposed speaks positively about the degree of enforcement effort NCA is 
willing to expend.
    A further example of NCA's efforts to enforce the letter and, in my 
view, the spirit of the disqualification statute can be found in the 
relatively elaborate procedures adopted by NCA for the enforcement of 
the difficult provisions of law set forth in the 38 U.S.C. 
Sec. 2411(b)(3). Those provisions bar burial to those who are found to 
have committed a Federal capital crime or State capital crime but have 
not been convicted of such crime by reason of death or flight to avoid 
prosecution. In this lawyer's view, such a finding pivots on a series 
of questions--Was the crime in question a ``capital'' crime? Did the 
person seeking burial commit it? Would he or she have been convicted of 
any crime had there been a trial? Would he or she have been convicted 
of that crime?--that are not easily answered by one trained in the law. 
Clearly, they are not simple matters to be resolved by cemetery 
managers. Yet NCA has promulgated regulations which attempt to 
systematize and give fundamental fairness to the decision making 
process. Again, I think these efforts to do as the Congress has 
directed speak well of NCA's enforcement efforts.
    Because I am, at this point, still uninformed on the practical 
issues faced by cemetery directors in the acceptance of remains for 
interment, I am hesitant to offer less-than-fully informed suggestions 
on how NCA might improve its section 2411 enforcement efforts. It does 
occur to me that NCA officials who deal directly with funeral directors 
in the acceptance of remains for interment might consider a practice of 
routinely asking funeral directors whether they have reason to believe 
that section 2411 might be applicable; funeral directors, after all, 
would likely know the place of death and, therefore, might have reason 
to know whether the deceased had been incarcerated at death. I do not 
know that NCA officials do not already do that. Accordingly, I would 
request the opportunity to study the issue after confirmation, if I am 
confirmed, before voicing further views on how NCA enforcement might be 
improved.
    Question 3. You have spent a considerable amount of time in 
leadership positions in the Senate. What can you take from your 
experience here in the Senate and apply to your new position, if 
confirmed?
    Answer. During my employment at the Senate Committee on Veterans' 
Affairs--and during my employment at VA prior to coming to the 
Committee--I have had occasion to become familiar with a considerable 
body of law and policy that affect veterans and their survivors. I 
trust that that background will be useful in my new role, should I be 
confirmed. Further, I will take to the position--if I am confirmed--a 
lawyer's more traditional understanding of substantive law and legal 
procedure and a former private practitioner's sense of the 
practicalities of commercial dispute resolution. These elements of my 
background will, I trust, be useful at the helm of an enterprise that 
spends, for example, over $80 million per year in major and minor 
construction and $70 million per year in the procurement of headstones, 
markers and graveliners.
    As I attempted to emphasize in my prepared statement, the more 
valuable elements of my experience in the Senate will be those which 
are less tangible. Here, I have learned that policy disputes over 
veterans' issues rarely turn on partisan or ideological considerations. 
More often, they are resolved on the basis of the power of one's policy 
arguments and the quality of one's preparation and, more subtly, on 
one's personal relationships with both potential policy allies and 
foes. I have learned the value of the ``human dimension'' that 
lubricates personal interaction and facilitates the advancing of one's 
management and policy goals. I have learned that allies may be found in 
unexpected places, and that they must always be sought out and, once 
found, not taken for granted. I have learned that opportunity sometimes 
presents at unexpected and even awkward moments and that one must be 
prepared to capitalize at unanticipated or inconvenient times. I have 
learned the practical value of openness and the necessity of 
consultation with potentially affected persons and organizations. And 
most importantly, I have learned the value of identifying staff who 
possess the personal qualities essential to success and, once having 
found them, trusting them to do their jobs. These and other ``lessons 
learned'' in the course of my employment at the Senate will, I think, 
be directly transferable to the job of Under Secretary for Memorial 
Affairs. The degree to which I retain them will, I expect, greatly 
determine whether I will succeed or fail.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Daniel K. Akaka 
                          to William F. Tuerk
    Question 1. Oftentimes, the only contact that a veteran and/or his 
family will have with VA is through the National Cemetery 
Administration. What will you do to make certain that this contact 
continues to be appropriate and positive?
    Answer. I concur that, in many cases, the sole contact a veteran's 
family will have with VA will be through National Cemetery 
Administration (NCA) staff during a time of great personal stress and 
sorrow. I also concur in the premise of the question that such contact 
is now appropriate and positive--customer satisfaction scores attest to 
that--and that the challenge I face will be assuring that such positive 
contact is continued through my tenure, should I be confirmed. In my 
view, employee attitudes that lead to positive and sympathetic 
interaction with the public cannot be ``disciplined in.'' Nor can they 
be acquired simply via training regimens and ``sensitivity'' seminars, 
though, as discussed below, there clearly is a place for such activity. 
I believe that, ultimately, NCA employees who deal directly with 
bereaved family members will display appropriate decorum if and when 
they themselves are rewarded with the respect that I think all humans 
seek. I believe that if ``wage-grade'' employees are treated as if they 
are less worthy of respect than salaried staff, and that they are 
``only here to dig a hole or sweep up,'' they will live down to that 
expectation and treat the public accordingly. Conversely, I believe 
that if managers remind such employees--both explicitly and by the 
manner in which they are treated--that they, as front line staff, are 
integral, vital members of the service-providing enterprise, those 
employees will live up to that expectation and treat the public 
accordingly. I believe, therefore, that training needs to focus not 
just on how staff should treat the public--but also on how supervisors 
must treat those in their charge.
    This is not to suggest that NCA managers are not fully aware of 
these principles. Were they not aware of them, NCA would not have 
achieved the customer satisfaction scores that it has. That being the 
case, I expect that complacency may be the danger ahead. My first 
activity to attack that complacency will be extensive travel to the 
field to meet with staff at all levels to assure them that senior VA 
management--and the Congress--are fully aware of the quality of work 
they perform and that they greatly appreciate that work. Beyond that, I 
will seek the advice of internal human resources staff and outside 
consultants, resources permitting, on developing programs to get across 
the message that: (1) NCA's success is in the hands of ``front line'' 
employees and (2) ``front line'' employees will be recognized for 
attention to the unique needs of NCA's grieving customers. Finally, I 
will maintain in force the highly successful quality assurance tools 
already in place at NCA: performance standards that signal high 
expectations, self-assessment tools, customer satisfaction surveys, 
etc.
    Question 2. I understand that annual veteran deaths will peak 
around 2008 to 115,000 a year. Are you confident that NCA can cope with 
the projected 24 percent increase in internments?
    Answer 2. I am aware that veteran death statistics will peak in 
2008 and that--at least after the ``shadow effect'' of burials of WWII/
Korea veterans' spouses is worked through--that demand for burial space 
will slowly drift downward. I am not fully confident, however, that NCA 
is as prepared that it ought to be--or that it would like to be--to 
fully meet that peak demand since planned new cemeteries will likely 
not yet be fully in operation in 2008. Nor will the needs of veterans 
in smaller--but not inconsequential--communities that have no plans to 
provide for burial options now ``on the drawing board'' be met in 2008. 
Necessary lead times would, I expect, preclude readiness even if plans 
could be developed immediately.
    As I said in my oral testimony to the Committee, the timely 
achieving of NCA's current goal of providing a burial option to 90 
percent of the Nation's veterans is vital. I will not be satisfied 
simply with meeting that goal. Once--and before--that key goal is met, 
NCA must, in my view, turn its attention to other non-served areas not 
addressed in current new-cemetery construction plans. I hope to find 
opportunities to enhance the attractiveness and speed of the State 
Cemetery Grant Program to meet these unmet--and unplanned for--needs.
    The above observations having been made, I am advised by NCA that, 
in addition to the 11 new national cemeteries now under construction, 
two new State cemeteries (in California and Texas) will be opened 
before the end of 2005, and that 20 additional new State cemeteries 
will open before the end of the decade. I am assured, as well, that NCA 
continues to seek innovations (like pre-placed crypts) that will add to 
the productivity of existing cemetery acreage.

    Chairman Craig. Bill, thank you very much.
    Now let us turn to Robert Henke. Robert, thank you.

STATEMENT OF ROBERT J. HENKE, NOMINEE TO BE ASSISTANT SECRETARY 
      FOR MANAGEMENT, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Mr. Henke. Mr. Chairman, thank you, sir. Senator Akaka and 
Members of the Committee, Senator Burr, Senator Obama, thank 
you for the invitation to appear here today. It is truly an 
honor and a pleasure for me to be here.
    I would like to express my gratitude first, Mr. Chairman, 
to you and the committee for the expeditious consideration of 
my nomination, and those of my colleagues seated beside me. 
Having received several of these nominations as recently as 
this very month, the committee is now turning its attention to 
the matter in remarkably short order. I think that is a 
testament both to this committee and to the absolute importance 
of the work that the committee undertakes on behalf of our 
Nation's veterans. Thank you, Mr. Chairman.
    I am both honored and humbled to be President Bush's 
nominee to be the Assistant Secretary for Management. I owe a 
tremendous debt of gratitude to Secretary Jim Nicholson, Deputy 
Secretary Gordon Mansfield, and Chief of Staff Mick Kicklighter 
for their faith and confidence in me. These gentlemen are 
inspired leaders, absolutely dedicated to our Nation's 
veterans, and I could not ask to work for finer public 
servants, and I am energized at the prospect of joining their 
team.
    The Department of Veterans Affairs has, in my view, the 
very noblest of missions, and that is to honor the service and 
sacrifice of those who have done so much for all of us, and to 
gratefully, to thankfully keep our country's promises to them.
    Like many in the room today, I have had the privilege of 
wearing the Nation's uniform, and my service in the Navy was 
one of the defining chapters in my life. This experience has 
instilled in me the deepest respect for America's Armed Forces 
and their unwavering and selfless commitment to mission, to 
integrity, and to service. Should I have the privilege of 
confirmation, I will draw upon this profound respect, and it 
will provide me with energy and focus and direction.
    As a nominee, I recognize that I have much to learn about 
the Department of Veterans Affairs, its important 
responsibilities, and the issues of critical importance to 
veterans. If confirmed, I assure you that I will become fully 
immersed and tirelessly engaged in these pressing issues, and I 
will take a proactive, pro-veteran approach in advising the 
Secretary and the Deputy Secretary and in carrying out my 
duties.
    Mr. Chairman, I am joined today by my wife, Jennifer, and 
our two wonderful boys Ryan and Owen. Jen has been my----
    [Applause.]
    Chairman Craig. As long as we don't wake the other one up.
    [Laughter.]
    Mr. Henke. Yes, sir.
    Chairman Craig. Don't ask him to stand, please.
    Mr. Henke. Jen has been my partner and my best friend and 
my foundation for almost 16 years, and simply, without her love 
I would not be here today. She knows that public service is 
both a privilege and a responsibility, and she fully 
understands the many sacrifices of this and your profession, 
and she encourages me with her whole heart at every step of the 
way.
    Mr. Chairman, our oldest son, Ryan, started Cub Scouts this 
past weekend. We had a Cub Scout overnight camp-out, and it was 
a very great time, except for about two dozen daddy long-legs 
spiders in the tent. Ryan is quite enamored of his new status 
as a Tiger Cub, a status that may even beat becoming a big 
brother earlier this year. Mr. Chairman, I should warn you, 
however, that Ryan has his Tiger Cub Handbook here, and after 
the hearing, he may ask you to sign off item number 49, which 
is, of course, ``Visit a Government Office.''
    [Laughter.]
    Mr. Henke. I hope you will not mind, Mr. Chairman.
    Chairman Craig. Ryan, I will do that on one condition, and 
that is that you strive to become the top Scout in the country. 
Okay? We got a deal.
    Ryan Henke (audience). Yes, sir.
    Mr. Henke. Mr. Chairman, with our Nation at war, this is a 
critical time and there is much important work to do. I have 
met many of the impressive, talented professionals in VA's 
Office of Management, and I look forward to working with them 
and leading them. I am excited at the prospect of joining a 
team of VA professionals who have dedicated themselves to one 
goal: serving veterans. I would tell them, and I will tell this 
Committee: If I am fortunate to be confirmed, I will do my 
best. Veterans have done and always will do their best for us, 
and I owe them nothing less in return.
    Thank you, Mr. Chairman and Members of the Committee. I 
appreciate the opportunity to be here today. I look forward to 
your questions, and hopefully what will be the first of many 
opportunities to work with you on important issues.
    Thank you, sir.
    [The prepared statement of Mr. Henke follows:]
    Prepared Statement of Robert J. Henke, Nominee to be Assistant 
     Secretary for Management, U.S. Department of Veterans Affairs
    Mr. Chairman, Senator Akaka, and Members of the Committee, good 
morning and thank you for the invitation to appear today. It is truly 
an honor and a pleasure to be here. This is indeed a very special 
occasion for me and for my family.
    I want to express my gratitude, Mr. Chairman, to you and the 
Committee for the expeditious consideration of my nomination, and those 
of my colleagues seated beside me. Having received several of these 
nominations as recently as this very month, the Committee is now 
turning its attention to the matter in remarkably short order. I think 
this is a testament to this Committee and to the absolute importance of 
the work that the Committee undertakes on behalf of our Nation's 
veterans.
    Over the past several weeks, Members, Committee staff, and personal 
staff have been more than kind with their time and with their insights 
into the issues of importance to the Committee. Having served on the 
Senate staff, I know how precious your time is and how many important 
issues are on the Senate's agenda. I thank you.
    I am both honored and humbled to be President Bush's nominee to be 
the Assistant Secretary of Veterans Affairs for Management, and for the 
opportunity to testify here today. I owe a tremendous debt of gratitude 
to Secretary Jim Nicholson, Deputy Secretary Gordon Mansfield and Chief 
of Staff Mick Kicklighter for their faith and confidence in me. These 
gentlemen are inspired leaders, absolutely dedicated to our Nation's 
veterans. I could not ask to work with finer public servants, and I am 
energized at the prospect of joining their team.
    The Department of Veterans Affairs has, in my view, the most noble 
of missions: to honor the service and the sacrifice of those who have 
done so much for all Americans, and to gratefully keep our country's 
promises to them.
    I have had the privilege of wearing the Nation's uniform. My 
service in the Navy, whether in combat during Operation DESERT STORM, 
or as a Reservist mobilized for Operation ENDURING FREEDOM, is one of 
the defining chapters in my life. This experience has instilled in me 
the deepest respect for America's Armed Forces and their unwavering and 
selfless commitment to mission, to integrity and to service. They are 
America's best. They are patriots, in the very finest sense of the 
word. Should I have the privilege of confirmation, I will draw upon 
this profound respect, and it will provide me with energy, focus and 
direction.
    I believe that I bring valuable skills, experience and perspective 
to this new and challenging position. I have both private sector and 
public sector experience with financial management. After leaving 
active duty, I was with General Electric for three years and completed 
their rigorous Financial Management Program. I studied public policy 
and public administration at Syracuse University's Maxwell School of 
Citizenship and Public Affairs. In the public sector, I have experience 
with Federal resource management processes in both the legislative 
branch and the executive branch. I served for six years on the staff of 
the U.S. Senate Committee on Appropriations. Currently, I serve as the 
Principal Deputy Under Secretary of Defense (Comptroller) at the 
Department of Defense, where I have been fortunate to lead a team of 
over 190 financial management professionals.
    As a nominee, I recognize that I have much to learn about the 
Department of Veterans Affairs, its important responsibilities and the 
issues that are of critical concern to veterans. If confirmed, I assure 
you that I will become fully immersed and tirelessly engaged in these 
pressing issues, and I will take a proactive, pro-veteran approach in 
advising the Secretary and Deputy Secretary and in carrying out my 
duties.
    I do not undertake the prospect of these new duties lightly. 
Secretary Nicholson outlined a philosophy in his confirmation hearing 
and, if the Senate allows me to serve in this new capacity, I 
absolutely commit to those very same principles:
    <bullet> veterans should have access to the best available health 
care in the most appropriate clinical settings, delivered in a timely 
manner by caring, compassionate clinicians; and
    <bullet> veterans, their eligible dependents, and survivors are 
entitled to prompt, accurate, equitable and understandable decisions on 
their claims for benefits; and
    <bullet> veterans should be appropriately honored in death for 
their service and sacrifices on behalf of a grateful Nation.
    I am joined today by my wife Jennifer, and our two wonderful boys, 
Ryan and Owen. Jen has been my partner, my best friend, and my 
foundation for almost 16 years. Without her love and support, I simply 
would not be here today. She knows that public service is both 
privilege and a responsibility, and fully understands the many 
sacrifices of this profession, and she encourages me with whole heart 
at every step of the way.
    I would be remissed if I did not acknowledge my parents. While they 
could not be here today, they taught me, by the power of their example, 
about the importance of integrity, of faith, and of family. They imbued 
in me a respect and a love for this country that knows no bounds.
    With our Nation at war, this is a critical time and there is much 
important work to do. I have met many of the impressive, talented 
professionals in VA's Office of Management, and look forward to working 
with them and leading them. I am excited at the prospect of joining a 
team of VA professionals who have dedicated themselves to one goal: 
serving veterans. I would tell them, and I will tell the Committee 
this: if I am fortunate to be confirmed, I will do my best. Veterans 
have done and always will do their best for us; I owe them nothing less 
in return.
    Thank you, Mr. Chairman and Members of the Committee, for your 
courtesy and for the opportunity to be here. I look forward to your 
questions, and what I hope will be the first of many opportunities to 
work together on issues important to veterans.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Response to Written Questions Submitted by Hon. Larry E. Craig 
                           to Robert J. Henke
    Question 1. Last week, I sent a letter to the Secretary expressing 
my concerns about the accounting of funds VA is spending to aid 
veterans and others affected by Hurricane Katrina. If you are 
confirmed, what measures will you take to track reimbursable 
expenditures and ensure that reimbursement claims are submitted to FEMA 
in a timely manner?
    Answer. VA has a process in place to ensure that disaster-
associated expenditures are properly documented and that reimbursement 
requests are accurately and promptly submitted to FEMA. If confirmed as 
the Assistant Secretary for Management and Chief Financial Officer 
(CFO), I will be personally involved in ensuring that VA is proactive 
in documenting expenses and submitting reimbursements requests to FEMA. 
I know that, among other efforts, VA has deployed many medical 
professionals in support of community needs. VA has provided area 
emergency managers to certain States, operates mobile dental clinics, 
and has activated VA Federal Coordinating Centers as requested by FEMA. 
I share VA's pride in being an integral part of helping disaster 
victims. I also share your concern that VA quickly receives appropriate 
reimbursement for these laudable efforts.
    Within VA, the first responsibility for coordination of assignments 
and proper accounting is within VHA's office of Emergency Management 
Strategic Health Care Group. The Department's Offices of Budget and 
Finance (under the Assistant Secretary for Management) are actively 
involved in monitoring these efforts, and I will be apprised of 
progress in this area and will ensure it is appropriate. The Office of 
Finance will, upon certification, execute the inter-agency fund 
transfer from FEMA to VA, ensuring VA receives the funds and credits 
the appropriate accounts.
    Please be assured I understand how important it is to account for 
and have available to VA resources critical to providing timely, 
quality care for our veterans. If confirmed, I will be proactively 
engaged to ensure that FEMA appropriately reimburses the Department for 
expenses incurred in disaster relief efforts.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                           to Robert J. Henke
    Question 1. The Department of Veterans Affairs acknowledged a 
budget shortfall of at least $1.5 billion this spring. I find this 
deeply disturbing, especially since the Department sent earlier letters 
stating that there was adequate funding. VA officials blamed poor 
models and unexpected costs of the Iraq war. This is not a sufficient 
explanation in my view. It is particularly disturbing that the 
shortfall included $475 million more in long-term care costs which 
should be more predictable. What will you do to evaluate and improve 
the models used, and to regularly update budget estimates? How will you 
work to ensure that the growing demands for long term care within our 
aging VA population will be accurately assessed?
    Answer. As I understand the long-term care shortfall issue, it had 
to do with the correct estimate of savings associated with policy 
initiatives in the fiscal year 2006 budget request and was an 
implementation timing issue, not a modeling issue. Nevertheless, if 
confirmed as the Assistant Secretary for Management and Chief Financial 
Officer (CFO), I will do everything in my power to ensure careful 
analysis and coordination of these estimates so that a similar error 
does not occur again.
    I understand that the Department is making strong efforts to 
improve the actuarial forecasting methodology and its budget 
formulation, execution and monitoring processes so VA can expeditiously 
adjust for time lag in data used to develop these estimates. VA intends 
to continue to improve its overall financial and accounting management 
practices to preclude any repeat of this past year's experience. If 
confirmed, my staff and I will play a very proactive role in these 
estimating and reporting improvements, and I will work to ensure that 
funding is made available to support the VA's long-term care policies 
for veterans.
    Question 2. For more than a decade, I have been very concerned 
about the long-term health affects of veterans who served in the first 
Persian Gulf War, and those serving today. VA has proposed a multi-year 
research commitment regarding Gulf War Illness, and this investment is 
critical in my view. What will you do in your budgetary role to ensure 
that long-term commitments to vital research are fulfilled?
    Answer. I understand that research commitments and priorities are 
established by the Secretary and the Under Secretary for Health. If 
confirmed as the Assistant Secretary for Management and Chief Financial 
Officer (CFO), I will ensure that funds appropriated by Congress for VA 
research purposes, including Gulf War Illness research, are made 
available to the Veterans Health Administration in a timely manner. I 
will also ensure that requests for future Gulf War Illness research 
funding are highlighted in the Department's budgetary discussions for 
future years.
    Question 3. The CARES Commission did not make a recommendation for 
the long-term strategy plan for VA's long term care and mental health 
care policies because the Commission said it lacked the time and 
necessary data. How will you work to develop the information on long 
term care and mental health care needed for effective strategic 
planning, and how will you work to integrate this into the budget and 
ongoing strategy plan for VA?
    Answer. I understand that the Department is developing a strategic 
plan for long-term care and mental health care. If confirmed as the 
Assistant Secretary for Management and Chief Financial Officer (CFO), I 
will follow the direction of the Secretary, with input from the Under 
Secretary for Health, in formulating future budgets that implement this 
strategic plan.
    Question 4. By reports and press accounts, VA is doing a truly 
admirable job of helping veterans and others in the disaster areas. 
This is part of VA's mission and I am very proud of its work. But, how 
is VA tracking the costs of such care and distribution of prescription 
drugs, and what are the current cost estimates? Will VA be reimbursed 
by FEMA or will VA need additional funding from Congress in order to 
avoid future funding shortfalls?
    Answer. VA has a process in place to ensure that disaster-
associated expenditures are properly documented and that reimbursement 
requests are accurately and promptly submitted to FEMA. If confirmed, 
as the Assistant Secretary for Management and Chief Financial Officer 
(CFO), I will be personally involved in ensuring that VA is proactive 
in documenting expenses and submitting reimbursements requests to FEMA. 
This process is dynamic and on-going, and VA does not yet have cost 
estimates that have been validated and approved. When these cost 
estimates are validated and approved, VA will be happy to provide the 
Committee with that information.
    I know that, among other efforts, VA has deployed many medical 
professionals in support of community needs. VA has provided area 
emergency managers to certain States, operates mobile dental clinics, 
and has activated VA Federal Coordinating Centers as requested by FEMA. 
I share VA's pride in being an integral part of helping disaster 
victims. I also share your concern that VA quickly receives appropriate 
reimbursement for these laudable efforts.
    Within VA, the first responsibility for coordination of assignments 
and proper accounting is within VHA's office of Emergency Management 
Strategic Health Care Group. The Department's Offices of Budget and 
Finance (under the Assistant Secretary for Management) are actively 
involved in monitoring these efforts, and I will be apprised of 
progress in this area and will ensure it is appropriate. The Office of 
Finance will, upon certification, execute the inter-agency fund 
transfer from FEMA to VA, ensuring VA receives the funds and credits 
the appropriate accounts.
    Please be assured I understand how important it is to account for 
and have available to VA resources critical to providing timely, 
quality care for our veterans. If confirmed, I will be proactively 
engaged to ensure that FEMA appropriately reimburses the Department for 
expenses incurred in disaster relief efforts.

    Chairman Craig. Thank you very much. Now we will turn to 
John Molino.
    John.

STATEMENT OF JOHN M. MOLINO, NOMINEE TO BE ASSISTANT SECRETARY 
  FOR POLICY, PLANNING, AND PREPAREDNESS, U.S. DEPARTMENT OF 
                        VETERANS AFFAIRS

    Mr. Molino. Thank you, Mr. Chairman, Senator Akaka, Senator 
Burr, Senator Obama. Thank you to the committee for considering 
my nomination and those of my colleagues for positions within 
the Department of Veterans Affairs. I appreciate the confidence 
that the President has expressed by nominating me in the 
leadership of the Department as well. I am humbled by the 
nomination, I am grateful for your consideration, and if 
confirmed, I would be privileged to serve as an Assistant 
Secretary at VA.
    Joining me today is my wife, Eileen, who has been my 
steadfast supporter for my 20 years on active duty and the 10 
years since my retirement from the Army. With her are two of 
our three sons: our oldest, Bill, and our youngest, Matthew, 
both a long time past their days in Tiger Cubs and Cub Scouts. 
I would ask them to please stand.
    [Applause.]
    Mr. Molino. We started very young, Mr. Chairman.
    Not joining us today is our second son, Christopher, who is 
a captain in the Army and is currently serving with his Ranger 
unit in Iraq.
    [Applause.]
    Mr. Molino. The responsibilities of this position span a 
broad spectrum. They go from the coordination of all policies 
being considered by the Secretary to ensure that they have been 
thoroughly vetted, fully coordinated, and that there are no 
unintended consequences when they are, in fact, implemented 
throughout the Department. They also stretch, the 
responsibilities do, to planning and preparedness for 
unforeseen circumstances and situations that the Department may 
have to face in the future.
    The work of the Department of Veterans Affairs is noble 
work because it is through this Department that the Nation 
expresses its gratitude to the men and women who have served in 
uniform in defense of freedom. Truly, we would not be living in 
the land of the free if this were not also the home of the 
brave.
    I ask this committee, therefore, for its support of my 
nomination. I ask the Senate for its confirmation. I promise 
you that my tenure at the Department of Veterans Affairs will 
have as its benchmark a tireless commitment to our military 
veterans and their families.
    Senator, I would be happy to entertain your questions.
    [The prepared statement of Mr. Molino follows:]
Prepared Statement of John M. Molino, Nominee to be Assistant Secretary 
  for Policy, Planning, and Preparedness, U.S. Department of Veterans 
                                Affairs
    Chairman Craig, Senator Akaka, Members of the Committee, thank you 
for your consideration of my nomination to serve as an assistant 
secretary in the Department of Veterans Affairs. I am grateful to 
President Bush for the confidence he has placed in me by nominating me 
for this position. I am humbled by the nomination, honored by your 
consideration, and I would be privileged, if confirmed, to serve as the 
Assistant Secretary for Policy and Planning.
    My earliest memories include value and respect for selfless 
service. My father served as a soldier during World War II. He later 
joined the Veterans of Foreign Wars and rose through the progression of 
positions, serving at post and county levels. He was especially proud 
of his volunteer service at the VA hospital (not far from my boyhood 
home in Brooklyn, New York), where he amassed literally thousands of 
volunteer hours. He would have been very proud had he lived to see his 
youngest son serve as a Deputy Under Secretary of Defense and to 
receive the President's nomination to be an Assistant Secretary of 
Veterans Affairs.
    My parents had three sons. Each of us was a career Army officer, 
serving a combined total of nearly 75 years on active duty.
    I would be remiss if I did not thank my wife, Eileen, for her 
steadfast support and the positive influence she has been on each of 
our three sons. Eileen joins me today, along with our eldest son, Bill, 
and our youngest son, Matt. Bill is a graduate of the College of 
William and Mary and is employed by Northrup-Grumman. He has focused 
his service in our church community. Several years ago, he founded a 
summer theatre program for high school-aged youth that has become a 
mainstay in our community. It has grown in popularity annually, 
providing a wholesome, summer activity for many young people. Matt is a 
senior at George Mason University. He will graduate in January and will 
begin his active service as a lieutenant in the U.S. Army at that time. 
Chris, our second son, could not be with us today; he is a captain in 
the Army and is currently serving with his Ranger unit in Iraq.
    Upon confirmation, I will become thoroughly familiar with the 
issues facing the Department and will do my best to ensure we are a 
Department competent & capable today and fully prepared for the 
challenges of tomorrow. The Assistant Secretary for Policy and Planning 
is charged with the responsibility of ensuring that decisions made by 
the Secretary and his Deputy are made with full consideration of their 
impact throughout the department. The cross-cutting nature of this 
position makes it vital to the current and future well-being of the 
Department and the lives of this nation's veterans. I promise you that 
my tenure will have as its benchmark a total commitment to America's 
veterans and their families.
    I am acutely aware how fortunate we are to live in this country, 
how blessed we are by God, and how grateful we should be to those who 
have served and to those who serve today to protect our way of life. We 
are wise to remember that this would not be the land of the free, were 
it not also the home of the brave.
    I am committed to be of service to those brave Americans who have 
served our nation in uniform.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Response to Written Questions Submitted by Hon. Larry E. Craig 
                           to John M. Molino
    Question 1. I understand that the Assistant Secretary for Policy, 
Planning, and Preparedness has a wide array of responsibilities. Can 
you describe for us some of the key responsibilities of that position 
and how you plan to fulfill them?
    Answer. Yes, this office certainly has a wide array of 
responsibilities. I am confident my experience together with the team 
already in place in the office will effect an organization that will 
successfully fulfill its mission and provide the highest quality 
support to the Secretary, the Congress and the Administration.
    The Office of Policy, Planning, and Preparedness serves a diverse 
set of needs for the executive leadership of VA, the Congress, and 
other organizations. One of the primary elements of this organization 
is the Office of Policy. This office provides the Secretary and VA 
executive management with independent analysis and data on policies 
that impact veterans. One of the challenges taken on by this office (at 
the direction of Congress) is to assess current VA outreach efforts and 
recommend improvements in VA's current outreach programs. As you know, 
as Deputy Under Secretary of Defense for Military Community and Family 
Policy, I was directly involved in the development and execution of 
outreach efforts. VA, like DoD, faces the challenge of coordinating 
outreach concerning a complex set of benefits and services. I believe 
my experience will add value to this outreach improvement initiative.
    Along those same lines, the Assistant Secretary for Policy, 
Planning, and Preparedness is responsible for Department-wide strategic 
planning. The strategic plan for VA addresses the provision and 
delivery of a vast array of benefits and services provided through 
individual administrations. As, it is my responsibility to develop a 
single, comprehensive strategic plan that crosses internal 
organizational lines and ensures that all administrations (Veterans 
Benefits Administration, Veterans Health Administration, and National 
Cemetery Administration) are working in concert toward the ultimate 
goal of serving our Nation's veterans. In support of this, the Office 
manages program evaluations for the Department. These evaluations, 
conducted by independent parties, assess if programs are meeting their 
legislated intent and provide recommendations for improvements. My 
experience will be useful in successfully integrating the results from 
program evaluations into policies that benefit veterans.
    I look forward to becoming engaged in the preparedness aspect of 
the office, as well. As I understand it, VA played a large and 
successful role in recent emergency response activities, including 
assistance in evacuations and protection of infrastructure and ensuring 
patient safety under adverse conditions. VA assets are an important 
part of the emergency support functions in the National Response Plan. 
I believe that my experience in the Department of Defense in working 
with VA and other agencies can be helpful in further developing agency 
to agency relationships that are so critical to the success of 
integrated emergency preparedness planning and execution.
    Question 2. One strategic goal of the Office of Policy, Planning, 
and Preparedness is to ``improve the Nation's preparedness for response 
to war, terrorism, national emergencies, and natural disasters.'' The 
events surrounding hurricanes Katrina and Rita will undoubtedly provide 
a vast amount of information as to how well that goal is being 
accomplished. Do you yet have a sense of what went well in dealing with 
these hurricanes and whether they there are any lessons to be learned 
from how VA responded?
    Answer. There are always lessons to be learned. I understand the 
VA's Crisis Response Team has begun the process of compiling the 
lessons learned from recent disaster events.
    Secretary Nicholson has already stated that among the lessons 
already learned are the importance of realistic emergency drills, the 
need to ensure that families of VA health care workers are safe, and 
most of all, the need to empower employees to ``do the right thing.''
    I have learned there are two essential elements to successful 
response to emergencies. First is to have adequate plans in place. I 
understand that VA was among the best prepared and most efficient 
agencies involved in the Federal response. I was impressed by the level 
of preparedness at VA hospitals, particularly in the affected areas. 
But drills and regulations and plans cannot work without the second 
essential element--a dedicated workforce willing to put in the time and 
energy to do what needs to be done. VA should be proud, as I am, of the 
workforce. As for preparedness for war, VA's role is to back up DoD in 
the provision of health care to active duty. In the case of national 
emergency, VA may be asked to provide health care to the general 
public.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Daniel K. Akaka 
                           to John M. Molino
    Question 1. In the aftermath of Hurricane Katrina, Secretary 
Nicholson and others briefed the Committee on VA's role in disaster 
relief. The Secretary commented that VA will come to Congress in the 
near future and request additional funding for money spent on disaster 
relief. I hope you will support the Secretary to do this in a timely 
manner.
    The recent natural disasters in the Gulf Coast region have 
highlighted VA's role in emergency response. Do you think that VA 
should be reimbursed for expenses incurred? I believe VA should be 
reimbursed for funds expended for emergency response consistent with 
Administration policies and the Stafford Act. As you know, VA health 
care is funded through a fixed, appropriated, annual budget. Although 
we do not yet know the extent of VA resources spent over the past few 
weeks for emergency relief, unanticipated spending could adversely 
affect planned budgets and possibly interfere with the provision of 
care to veterans. The Department has already drafted a process 
describing how VA will manage such reimbursements.
    Question 2. Mr. Molino, what are your top priorities for the office 
you will oversee and what can Congress do to assist you in your new 
role?
    Senator I have outlined in my answer to Senator Craig, some of the 
more important functions in the Office of Assistant Secretary for 
Policy, Planning, and Preparedness. My top priority will be to support 
the Secretary in his mission to provide the highest quality benefits 
and services to our Nation's veterans. I will do this through effective 
management of Policy, Planning, and Preparedness staff, active 
participation in senior leadership forums, building strong 
relationships within the Department and strengthening existing 
relationships with the Department of Defense.
    I do not know yet how best Congress can assist me in this role, 
however, I very much look forward to and appreciate your support.

    Chairman Craig. John, thank you very much.
    Now let us turn to Lisette Mondello.

        STATEMENT OF LISETTE M. MONDELLO, NOMINEE TO BE 
 ASSISTANT SECRETARY FOR PUBLIC AND INTERGOVERNMENTAL AFFAIRS, 
                  U.S. DEPARTMENT OF VETERANS 
                            AFFAIRS

    Mrs. Mondello. Thank you, Mr. Chairman and Members of the 
Committee, for the opportunity to appear before you today. It 
is a great honor to be nominated by President Bush to be 
Assistant Secretary for Public and Intergovernmental Affairs at 
the VA. I am also most grateful to Secretary Nicholson for his 
confidence in my ability to do this job and to do it well for 
our veterans.
    It was a privilege to have been introduced by my friend and 
my mentor, Senator Hutchison. She is a tireless advocate for 
our Nation's veterans.
    When I was growing up in Texas, I grew up with veterans. My 
dad and my uncle would show me pictures of when they were young 
men and they served in the Army, and they told me about their 
days in the service. My dad served in the Pacific during World 
War II, and when he came back, he was able to graduate from 
college because of the GI bill. My uncle served in France 
during World War I. I later had the privilege of working with 
Sam Johnson, a veteran of Korea and Vietnam, who spent nearly 7 
years in a North Vietnamese prison camp, half of that time in 
solitary confinement. Through him, I met many of his fellow 
POWs, and I remain today awed by their courage and their love 
of country.
    There is a country song--I don't know if anybody is a 
country and western fan--called ``My Heroes Have Always Been 
Cowboys.'' I think today I could say, ``My Heroes Have Always 
Been Veterans.''
    Without the dedication of the millions of men and women who 
served in our Armed Forces, we wouldn't enjoy the freedom we 
have today. I consider it a privilege to be able to serve those 
who served our Nation and defended the cause of freedom here 
and throughout the world.
    I have spent my professional life both in the public and 
private sectors, practicing the art of effective communication 
and how it can serve a mission's priorities. I have seen how 
constituents and constituencies are better served when they 
have clear and accurate information available to them. I have 
worked both in small offices and organizations as well as in 
large bureaucracies and actually seen both operate quite well.
    I spent nearly a decade in the Senate on the staffs of two 
highly effective Senators--both Senator Hutchison and prior to 
that Senator Al D'Amato of New York. I have also served most 
recently as senior advisor at the Department of Education under 
two very dedicated Secretaries during a time of sweeping 
national education reform. If confirmed to this position, I am 
looking forward to working with the staff at the Department to 
ensure that veterans receive the information they need to 
access their benefits and VA's other services.
    Within the Office of Public and Intergovernmental Affairs, 
we are charged with communicating services and programs to 
veterans, to their families, to service organizations, to State 
and local governments and communities.
    Information that is presented in an unclear and confusing 
manner is frustrating to our veterans; it is frustrating to 
those who work with them and to their families, and it is 
unfair. If the website, for example, is difficult to navigate 
or if information is scattered and hard to find, we must find 
ways to improve. For veterans like my father from World War II 
who would not necessarily turn to the Internet as their first 
avenue of gathering information, we must continue to look at 
all avenues of communication to reach them.
    There are more than 230,000 professionals at the Department 
of Veterans Affairs. They serve our veterans every day. They 
provide world-class health services. There is cutting-edge 
medical research going on. They do much more in providing 
benefits and services for our veterans.
    If confirmed, I will look for ways to constantly improve 
our communications efforts, both externally and internally. If 
confirmed, I will reach out to the State and local governments, 
to veterans, to community organizations, as well as to 
Congress, to explore ways we can work together to better 
communicate information about VA's programs and services to our 
veterans and to their families.
    Mr. Chairman, I would also like to thank my family and 
friends, many of whom are here today, for their support. My 
husband, Joe Mondello, who is also a Senate staff alum of many 
years, has provided me with unwavering support, and my son, 
Matthew, a first grader--who thinks today is a holiday because 
he is missing school.
    [Laughter and applause.]
    Mrs. Mondello. We are going to our first Cub Scout meeting 
tonight. My parents, Rosemary and Pete Elizondo, who couldn't 
be here today--they are in Dallas--they have always supported 
me in every endeavor I have ever tried, and I know they are 
sitting actually waiting to hear how it goes.
    Again, Mr. Chairman and Members, thank you so much for this 
opportunity, and I look forward to any questions.
    [The prepared statement of Mrs. Mondello follows:]
  Prepared Statement of Lisette M. Mondello, Nominee to be Assistant 
  Secretary for Public and Intergovernmental Affairs, U.S. Department 
                          of Veterans Affairs
    Thank you, Mr. Chairman and Members of the Committee for the 
opportunity to appear before you today. It is a great honor to be 
nominated by President Bush to serve as Assistant Secretary for Public 
and Intergovernmental Affairs at the Department of Veterans Affairs. I 
am also most grateful to Secretary Jim Nicholson for his confidence in 
my abilities
    It is a privilege to be introduced by my mentor, Senator Kay Bailey 
Hutchison from my home state of Texas. Senator Hutchison is a tireless 
advocate and supporter of our nation's veterans. Thank you, Senator, 
for your friendship and support.
    When I was growing up in Texas, my dad and uncle would show me 
pictures and tell me stories of their days in the service. My dad 
served in the Pacific during World War II. My uncle served in France 
during World War I. Later, I worked with Sam Johnson, a Korea and 
Vietnam veteran who spent nearly seven years in a North Vietnamese 
prison camp. I met many of his fellow POWs and remain awed by their 
courage and love of country.
    There is a country and western song entitled: ``My Heroes Have 
Always Been Cowboys.'' I would say rather ``My Heroes Have Always Been 
Veterans.'' I have chosen my heroes well.
    Without the millions of men and women whose love of country and 
dedication to duty, we wouldn't enjoy the freedom we have today. I 
consider it a privilege to be able to serve those who have served our 
nation and defended the cause of freedom and liberty here and 
throughout the world.
    I have spent my professional life both in the public and private 
sectors, learning the art of effective communication and how it can 
serve mission priorities. I have seen how constituents and 
constituencies are better served when they have clear and accurate 
information available to them. I have worked in small offices and large 
bureaucracies and seen both operate most effectively.
    I served nearly a decade in the Senate on the staffs of two highly 
effective Senators--Sen. Hutchison and Sen. Al D'Amato of New York. I 
have also served, most recently as a Senior Advisor in the Department 
of Education under two dedicated Secretaries (Rod Paige and Margaret 
Spellings) during a time of sweeping reform of our public education 
system. If confirmed to this position, I am looking forward to working 
with the dedicated staff at the Department of Veterans Affairs to 
support their objectives, initiatives and programs as we ensure that 
veterans receive the information they need to access their benefits and 
VA's services. I am also committed to building strong alliances and 
partnerships with state and local governments as we work together to 
assist our veterans.
    Mr. Chairman, we have a duty at the Department of Veterans 
Affairs--a duty to honor and serve our nation's veterans. Within the 
Office of Public and Intergovernmental Affairs, we are charged with 
communicating services and programs to veterans, their families, 
service organizations and State and local governments. It is imperative 
that we do our job well.
    Information presented in an unclear and confusing manner is 
frustrating to our veterans, their families and those who serve them. 
If the website is difficult to navigate or if information is scattered 
and difficult to find, we must find ways to improve. For veterans like 
my father, who would not turn to the web for information, we must look 
at all avenues of communication to reach them. Our veterans deserve our 
very best efforts.
    More than 200,000 professionals at the Department serve our 
veterans--every day they provide world class care, cutting edge 
research, and other benefits and services. It is our job in Public and 
Intergovernmental Affairs to reach out to our veterans, their families 
and those who work with them, to ensure that they have the information 
they need to make informed decisions about the benefits, services and 
programs that are available to them.
    I will look for ways to constantly improve our communications 
efforts both externally and internally. If confirmed, I will reach out 
to State and local governments, to veterans and community 
organizations, as well as to Congress to explore ways to better 
communicate information about the VA's programs and services to our 
veterans and their families.
    Mr. Chairman, I would also like to thank my family and friends, 
many of whom are here today, for their support. My husband Joe 
Mondello, who is also a Senate staff alum and has provided me with 
unwavering support, and my son Matthew, who is very excited that Mommy 
is going to help our soldiers when they come home. And my parents, 
Rosemary and Pete Elizondo of Dallas, who have always supported me in 
all my endeavors.
    Thank you again, Mr. Chairman and Members of the Committee, for 
your consideration of my nomination. I would be happy to answer any 
questions you may have.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Response to Written Questions Submitted by Hon. Larry E. Craig 
                         to Lisette M. Mondello
    Question 1. It is my understanding that the Assistant Secretary for 
Public and Intergovernmental Affairs is responsible for managing and 
directing a number of programs, including international, consumer 
affairs and faith-based community initiatives programs. How would your 
experience help you assume those responsibilities?
    Answer. The management of the diverse programs in the Office of 
Public and Intergovernmental Affairs will be one of my highest 
priorities. Watchful stewardship ensures that the programs are working 
well for those they are intended to serve. It is a responsibility I 
take most seriously.
    Throughout my career, I have worked with a variety of national, 
State and local groups on a wide variety of issues. Although a 
significant part of my portfolio was media or public affairs, I also 
had strategic and implementation management responsibility on a number 
of key issues that required working with constituents, constituencies 
and government officials. Whether it was education, law enforcement, 
senior concerns, or consumer affairs, the issues covered a diverse 
range of topics of interest to a variety of groups and communities. For 
example, the implementation of electronic delivery of Federal benefits 
(EFT 99) was a major issue for senior and consumer organizations as 
well as to the Federal Government and the banking community. When 
working on the issue of Nazi gold in Swiss banks, the Holocaust 
survivor organizations and the international community were integral 
parts of process. In education, parents, teachers, national, State and 
local officials and organizations, all play integral roles. In 
addition, I worked closely on issues that affected State and local 
governments as well as community associations who desired or received 
Federal grants and programs.
    Question 2. One of VA's objectives is to be ``recognized as a 
leader in the provision of specialized health care services.'' In 
recent years, VA has done a remarkable job in transforming into one of 
the nation's best health care systems. Do you yet have a sense of what 
measures can be taken to foster VA's well-deserved reputation as a 
leader in health care services?
    Answer. Increasing the recognition of the leadership role of VA 
health care services is a key mission for the public affairs office and 
this mission's success brings with it significant benefits for the 
program. Recognition can bring not only enhanced reputation but also 
raised credibility among the veteran population and raised internal 
morale. I would recommend a multi-pronged approach to communicating the 
VA information. This plan would include increasing our outreach to 
national media, as well as increasing our emphasis on local, regional 
and specialized media. I would also promote the many health care 
specialists to the media for expert comments. I would also recommend 
coordinating with other offices at VA to ensure that local media 
opportunities are part of travel itineraries.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Daniel K. Akaka 
                         to Lisette M. Mondello
    Question 1. When we met earlier this week in my office, we talked 
about the various means of communicating with different generations of 
veterans and their families. Can you give me some examples of how VA 
can meet the varying communication needs of its constituency?
    Answer. The diverse age demographics of today's veterans require a 
communications plan that provides information in a variety of ways to 
ensure that we reach the maximum number of veterans as possible. 
Younger veterans will primarily get their information from the 
intranet. I believe the VA website can be more ``user-friendly'' and 
would work to make the site easier to navigate and the information more 
clearly presented. For many of our older or economically disadvantaged 
veterans, the intranet will not be their primary information vehicle. 
For them, we would work to increase the access to VA information 
through local, regional and specialized media. It is my understanding 
that the public affairs office has just come to an agreement with ABC 
Radio Network, American Country Countdown and Salem Radio Network to 
produce and air a series of PSAs (public service announcements) at no 
charge to the Department on health care and benefits available to 
veterans. These radio networks have more than 5000 affiliate stations 
total nationwide. I also believe that national and local groups and 
associations, as well as their publications, are excellent ways to 
communicate to veterans.
    Question 2. Mrs. Mondello, in your opening statement, you point to 
a wealth of prior work experience you have in communicating information 
to various constituencies. As you know, my home state of Hawaii has 
some isolated veteran communities on the smaller islands. What new 
strategies would you implement to ensure fast effective communication 
to this Nation's rural and isolated veterans communities?
    Answer. Reaching our veterans who live in rural or otherwise 
isolated communities requires what I would describe as a 
``cooperative'' communications strategy. While we would work to 
increase information on VA's services and benefits on a national media 
level, there needs to be an increased focus on small, local media such 
as weekly or community newspapers to small radio stations to ``non-
traditional'' media outlets. We would work closely with State Veterans 
Directors and personnel, as well as with local and community officials, 
to identify and inform local media and community groups that reach or 
serve our rural veterans. We would also look for ways to keep these 
officials and groups informed and supplied with up-to-date information 
on VA benefits and services available in their areas for dissemination 
to veterans and those who serve them.

    Chairman Craig. Lisette, thank you very much. Matthew, I 
will be happy to sign your excuse slip.
    [Laughter.]
    Chairman Craig. George Opfer. George, welcome to the 
committee.

STATEMENT OF GEORGE J. OPFER, NOMINEE TO BE INSPECTOR GENERAL, 
              U.S. DEPARTMENT OF VETERANS AFFAIRS

    Mr. Opfer. Thank you, Mr. Chairman, Senator Akaka, Senator 
Burr, Senator Obama. It really is an honor for me and my family 
to be here today, having been nominated for the position of 
Inspector General by the President. I am fortunate to be 
accompanied today by my beautiful and supportive family. Betty 
and I will be celebrating our 32nd wedding anniversary soon, 
and two of my three children--Tom, the oldest, is a teacher in 
Fairfax at Paul VI High School, and Chris is a recent graduate 
of the University of Miami Law School, so I am starting to see 
a little light at the end of debtor's prison. Allison, my 
youngest, couldn't be here today. She is on a basketball 
scholarship at the University of Indianapolis, and the coaches 
are tough. They wouldn't even allow her to come for her dad's 
confirmation hearing. But Betty and I, are very fortunate to be 
here.
    Chairman Craig. Please stand so we can recognize you. Thank 
you.
    [Applause.]
    Mr. Opfer. The VA's mission to serve, honor, and recognize 
the veterans for their service to our Nation is the noblest of 
callings. As in past wars, Afghanistan and Iraq bring to our 
attention and remind us of the incredible sacrifices that the 
men and women in uniform are making to preserve our freedom and 
protect our democracy. The Department's sacred mission, ``to 
care for him who shall have borne the battle and for his widow 
and his orphan,'' is the legacy passed on from President 
Abraham Lincoln. Today the Veterans Affairs has to carry that 
mission out to approximately over 25 million living veterans 
and their families.
    While I know every position has a learning curve, I do 
believe by the reason of my previous experience and background 
that I will be able to fulfill the position of Inspector 
General. I have worked for almost 36 years in the Federal 
Government--25 years with the U.S. Secret Service, and 11 years 
in the Inspector General community both at the Federal 
Emergency Management Agency and the Department of Labor. I am 
intimately familiar with the role and responsibilities and 
functions of the Office of the Inspector General.
    I firmly believe that the Inspector General Act, enacted 25 
years ago, is as important today as it was then. It provides 
the Inspector General unique responsibilities and authorities 
to independently conduct oversight and reviews of the agency 
programs. It also requires the Inspector General to keep the 
Congress and the Secretary duly informed of any deficiencies in 
those programs. As Inspector General, I will use that authority 
to ensure an independent and objective review of the facts, 
whether the work consists of allegations of impropriety, 
whether it is audits of financial systems, program and 
evaluations, or in the case where it is criminal investigations 
conducted by the Office of Inspector General. I will 
aggressively pursue any criminal activity to the fullest extent 
of the law.
    In conclusion, Mr. Chairman, I am honored to be considered 
for this position, and I pledge, if I am confirmed, that I will 
work with you and the other Members of the Committee to make 
sure that you are duly informed of any issue that we all can 
address, critical issues facing the Department of Veterans 
Affairs so that they can make efficient and effective and 
economical delivery of benefits to our Nation's veterans.
    Thank you for the opportunity to appear today, sir.
    [The prepared statement of Mr. Opfer follows:]
Prepared Statement of George J. Opfer, Nominee to be Inspector General, 

                  U.S. Department of Veterans Affairs
    Mr. Chairman and distinguished Members of the Committee, I am 
honored to be here today, having been nominated by President Bush to 
lead the Office of Inspector General (OIG), Department of Veterans 
Affairs (VA). VA's mission to serve, honor, and recognize veterans for 
their service to our nation is the noblest of callings. As in wars 
past, Afghanistan and Iraq continue to remind us of the incredible 
sacrifices our men and women in uniform make to defend our freedom and 
protect us from terrorism. The Department's sacred mission, ``to care 
for him who shall have borne the battle and for his widow and his 
orphan,'' is the legacy of President Abraham Lincoln. This legacy 
extends to an estimated 25 million living veterans and their families.
    VA is the second largest agency in the Federal Government, with 
about 230,000 employees and an annual budget of approximately $70 
billion. In serving America's veterans, VA provides health care, income 
and re-adjustment benefits, and memorial and burial services. VA 
maintains facilities in every State, the District of Columbia, the 
Commonwealth of Puerto Rico, Guam, and the Philippines. Providing these 
services presents VA with constant challenges.
    The OIG has the formidable task of staying abreast of these 
challenges, and focusing its resources in areas that will maximize the 
impact it has on helping the VA accomplish its mission. Key issue areas 
currently being addressed by the OIG include:
    <bullet> Access to high-quality and safe health care.
    <bullet> Accurate and timely benefits processing.
    <bullet> Reliable financial management systems.
    <bullet> Efficient and economical procurement practices.
    <bullet> Effective and secure information management technologies.
    In addressing these issues, the OIG is resolved to ensure that VA 
programs and operations are efficiently and effectively managed, and 
free of violations of law, waste, and abuse. The OIG is also committed 
to aggressively investigating, arresting, and prosecuting persons 
perpetrating crimes affecting VA.
    While every position involves a learning curve, by reason of my 
experience and my commitment to service to our Country, I believe that 
I am qualified to fill this position. My 35-year Federal career has 
been dedicated to law enforcement and oversight of Federal programs. My 
work in the inspector general community, at the Federal Emergency 
Management Agency (FEMA) and the Department of Labor (DOL), and with 
the Secret Service has provided me with the necessary experience and 
knowledge to fulfill the responsibilities of this position in 
accordance with the mandate of the IG Act. I am intimately familiar 
with the role, function, operations, and challenges of leading an 
Office of Inspector General.
    I have worked on numerous issues that are systemic to government-
wide operations. Financial management, information management, 
procurement, performance, and accountability are not unique to any one 
agency. As the Inspector General for FEMA and as the Deputy Inspector 
General for DOL, I have managed and directed a wide variety of audits 
and investigations of agency programs and individuals. I have in-depth 
knowledge of government auditing standards, which focus on 
opportunities to improve the economy, efficiency, and effectiveness of 
programs. I also have extensive experience in the conduct and 
management of criminal, civil, and administrative investigations, 
including a long association in working successfully with Assistant 
U.S. Attorneys to prosecute cases on behalf of the Federal Government.
    The IG Act is as relevant today as it was over 25 years ago when it 
was first enacted. It provides the Inspector General with the authority 
and responsibility to independently conduct oversight into all programs 
and activities within the Department. It also requires the Inspector 
General to keep the Congress and the Secretary fully informed about 
problems and deficiencies and the need for corrective action. As 
Inspector General, I will use this authority to ensure an independent 
and objective review of the facts, whether the work involves 
allegations of impropriety, inspections for compliance with regulations 
and policy, or audits of financial systems. I will not hesitate to 
review and report on any issue of fraud, waste, abuse, or mismanagement 
brought to my attention. I will also aggressively pursue criminal 
activity and work to get founded cases prosecuted to the fullest extent 
of the law.
    VA OIG has an outstanding reputation in the inspector general 
community and within the Department. This reputation has been earned 
through the hard work and dedication of its staff. I look forward to 
becoming part of the VA OIG team and carrying on the legacy of working 
with Congress and the Department to help ensure our Nation's veterans 
receive the benefits they have earned through service to their country. 
My goal is to be an agent for positive change and help VA become the 
best-managed service delivery organization in Government.
    As Inspector General, I will continue to recruit, develop, and 
retain a diverse and motivated workforce. OIG training programs and 
facilities must provide staff with the necessary skills and tools to 
excel at their jobs. Overseeing an agency as multifaceted and complex 
as VA requires OIG personnel to be able to respond to ever-changing 
challenges. I will remain devoted to ensuring that the OIG team remains 
ready to fulfill their mission in an independent, objective, thorough, 
and timely manner.
    In conclusion, I am honored to be considered for this position. If 
confirmed, I will assume the duties of Inspector General with 
enthusiasm and a commitment to uphold the public trust. Mr. Chairman, I 
pledge to work collaboratively with you and all the Members of the 
Committee to address the many critical issues impacting the efficient, 
effective, and economical delivery of benefits to our Nation's 
veterans.
    Mr. Chairman, thank you for the opportunity to provide this 
statement. I would welcome any questions that you or other members 
might have.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Response to Written Questions Submitted by Hon. Larry E. Craig 
                            to George Opfer
    Question 1. You have a great deal of experience in investigative 
roles and as an Inspector General. What can you take from your previous 
experience and apply to your new position, if confirmed?
    Answer. My entire Federal career has been dedicated to law 
enforcement and oversight of Federal programs. My work in the inspector 
general community, at the Federal Emergency Management Agency (FEMA) 
and Department of Labor (DOL), and with the Secret Service has provided 
me with the necessary experience and knowledge to fulfill the 
responsibilities of this position in accordance with the mandate of the 
IG Act. I am intimately familiar with the role, function, operations, 
and challenges of leading an Office of Inspector General.
    As a current member of the inspector general community I have 
worked on numerous issues that are systemic to government-wide 
operations. At both FEMA and DOL, I have managed and directed audits 
and investigations of agency programs and individuals. I have in-depth 
knowledge of government auditing standards, which focus on 
opportunities to improve the economy, efficiency, and effectiveness of 
programs. I also have extensive experience in the conduct and 
management of both criminal and administrative investigations, 
including a long association in working successfully with Assistant 
U.S. Attorneys to prosecute cases on behalf of the Federal Government.
    Question 2. Concerns have been expressed to the Committee staff 
about the VA Inspector General's office focusing heavily on monetary 
recovery actions. It is my understanding that some of these actions are 
being taken against firms that are generally good actors and partners 
in government procurement and that the firms may be paying monetary 
penalties to the government without admitting any wrong-doing largely--
in their view--to avoid lengthy and costly public proceedings that 
could undermine the confidence in their companies. Do you believe that 
any such policy could be against the interest of the government, 
especially if it discourages quality companies from doing business with 
the government? And, do you believe that government officials must be 
closely monitored in the area of financial penalties to ensure that 
they adhere to a high standard of objectivity and integrity?
    Answer. I believe one role of the VA Inspector General is to ensure 
VA and contractors adhere to all applicable laws, rules, and 
regulations, and that both parties comply with all contractual terms 
and conditions. The Office of Inspector General (OIG) has a 
responsibility to review contracts to identify overcharges and other 
damages to the Federal Government related to non-compliance with 
contract terms and conditions. All work performed by the OIG must be 
conducted with objectivity and integrity, and be based on an 
independent and thorough review of the facts. Monetary recoveries and 
penalties can result from post-award audits and in response to 
complaints filed under the qui tam provisions of the False Claims Act.
    It is my understanding that post-award audits are conducted at the 
request of VA contracting officers or in response to contractors' 
voluntary disclosures. The purpose of these audits is to ensure that VA 
receives fair and reasonable prices that are based on accurate 
information provided by the contractor. When the OIG determines that 
the Federal Government did not receive the price required under the 
terms of the contract and there is no evidence of fraud, the OIG makes 
a recommendation to VA to collect the overcharges.
    Of the 238 post-award audits conducted in the past 12 years, 107 
were conducted in response to contractor's voluntarily disclosing they 
overcharged the government. These contractors collectively offered to 
pay $37.5 million in overcharges. However, post-award audits of data 
submitted by the contractors determined that the overcharges were 
actually $113 million. The Department negotiated recovery of the funds. 
The Inspector General is required under the IG Act to report all 
criminal violations to the Department of Justice (DOJ). Of the 107 
voluntary disclosures, 5 were referred to DOJ for a determination as to 
whether there was a violation of criminal law and to pursue any 
monetary restitution and penalties prescribed by law.
    The OIG is also required to investigate allegations of contract 
irregularities in response to Hotline allegations or qui tams received 
from DOJ. These cases involve a wide variety of issues related to VA 
contracts such as defective pricing, overcharging, product 
substitution, Buy American Act violations, violations of Medicare/
Medicaid laws, and off-label marketing of pharmaceuticals. In these 
cases, the OIG conducts a review to determine if fraud has been 
committed and the extent of the damages. The OIG provides the results 
of these reviews to DOJ, which is responsible for negotiating monetary 
settlements with the contractors, to include recovering damages and 
determining monetary penalties as prescribed by law. If confirmed, I 
will review this process to ensure a high standard of objectivity and 
integrity.
    Question 3. The President's Management Agenda places an important 
emphasis on small business participation in government procurement 
awards. Yet, concern has been expressed to the Committee staff that 
staff from the Inspector general's office have made recommendations and 
taken actions recently that may severely hamper VA's ability to 
contract with any small or local businesses and instead leave VA little 
choice than to nationalize all procurements and contracts with big 
suppliers. Do you believe that the Inspector General has a 
responsibility to be cognizant of the President's Management Goals and 
Congressional procurement policies when making recommendations to VA on 
changes in its procurement policies?
    Answer. I do believe that the Inspector General has a 
responsibility to be fully aware of the goals of the President's 
Management Agenda and all applicable procurement related laws, rules, 
and regulations when performing oversight and recommending improvements 
in procurement processes. As explained to me the OIG conducts pre-award 
reviews of proposals submitted by contractors seeking VA Federal Supply 
Schedule (FSS) contracts, at the request of VA contracting officers. 
The scope of these audits is defined by GSA regulations pertaining to 
the FSS, which do not distinguish between small and large businesses. 
As a result, pre-award audit recommendations do not differentiate 
between small and large contractors.
    In addition to pre-award audits, the OIG reviews purchasing 
activities at VA facilities on a cyclical basis to ensure compliance 
with VA policies and procedures. These reviews have identified numerous 
open market purchases when the same products were available at a lower 
price on a FSS contract. In these cases, we recommended that VA comply 
with VA's policy mandating the use of national contracts, including FSS 
contracts. Compliance with these recommendations may impact some small 
and local businesses, as well as large businesses.
    The FSS program allows all vendors the opportunity to obtain a 
contract to provide goods and services to VA and other Federal 
agencies. This program is particularly beneficial to small businesses 
because they can be awarded a contract without competition with large 
suppliers. VA data shows that 72 percent of the current VA FSS 
contracts are awarded to small businesses.
    If confirmed, I will ensure that all recommendations made by the 
OIG are consistent with the overarching charge to protect the integrity 
of government, improve program efficiency and effectiveness, and 
prevent and detect fraud, waste, and abuse in Federal agencies.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Daniel K. Akaka 
                            to George Opfer
    Question 1. The Office of Inspector General has an important role 
within VA. Staffing levels at VA is a major concern of mine. Given the 
responsibility that this office has, I would hope that staffing would 
never become a problem. Should there be a time where you need 
additional staff, will you fight within the Administration to increase 
your staffing level so that the Office of Inspector General can do its 
job?
    Answer. I intend to be a strong advocate for the resources needed 
to provide objective, independent oversight of VA programs and 
operations. I understand that each year the Office of Inspector General 
develops its resource request during the VA internal budget formulation 
process, and that the Inspector General always has had an opportunity 
to present and justify resource needs to the VA Secretary, who has a 
record of supporting OIG oversight initiatives. Additionally, the 
Office of Management and Budget has given the Inspector General its own 
budget hearings to discuss oversight needs as the Administration 
prepares its submission to Congress, and I intend to take full 
advantage of all such opportunities. The Inspector General has also 
responded to questions freely from oversight committees on resource 
needs and staffing levels. I will request funding levels that enable 
the OIG to carry out its statutory work of audits, investigations, and 
inspections--and in doing so--to help VA and Congress ensure veterans 
and their dependents receive the care, support, and recognition earned 
through service to their country.
    Question 2. Inspector General investigations are initiated by a 
variety of means. Will you be responsive to requests from Congress to 
initiate investigations?
    Answer. If confirmed, I will be responsive to oversight requests 
from Congress and make them a priority. In doing so I will utilize 
audit and investigative resources to ensure financial and 
administrative operations associated with the delivery of benefits to 
veterans are efficient, economical, and free from criminal activity. 
The Inspector General has a responsibility to receive allegations of 
fraud, waste, and abuse from many sources, including Congress. The VA 
OIG has one of most active Hotlines in the inspector general community, 
with over 15,000 contacts a year. I will direct OIG resources to 
conduct investigations, audits, and health care inspections to ensure 
the integrity of VA programs and operations--carrying out both reactive 
and proactive efforts. I will not hesitate to review and report on any 
issues of fraud, waste, abuse, or mismanagement brought to my 
attention. My goal will be to establish a priority for the detection, 
deterrence, and prosecution of fraud in VA programs and operations, 
using all available oversight and investigative tools including 
computer matching and data mining initiatives.
    The IG Act provides the Inspector General with independent 
authority and responsibility to conduct oversight into all programs and 
operations within the Department. At the same time, the IG Act requires 
the Inspector General to keep the Congress fully informed about 
problems and deficiencies and the need for corrective action. If 
confirmed as Inspector General, I will use this authority to ensure an 
independent and objective review of the facts, whether the work 
involves allegations of impropriety, health care inspections for 
compliance with regulations and policy, or audits of financial systems.

    Chairman Craig. George, thank you very much.
    We will now move to a round of questions. We will use the 
5-minute rule so that certainly each of us can get an 
opportunity. We have been asked to be on the floor before the 
vote starts. It is a seated vote in recognition of the obvious 
position involved with the Chief Justice of the Supreme Court. 
We will follow in that manner, and then if there are any 
questions left unasked, we will submit them to all of you in 
writing. I would not in any way--we would expect obviously 
prompt and timely responses, but we will also move very 
expeditiously to get you before the Senate for confirmation.
    With that, Bill, you have talked of your knowledge and 
understanding and of the importance of VA's responsibility in 
establishing national cemeteries and sustaining them and 
maintaining them in areas where no burial option exists within, 
say, 75 miles or where the veterans population exceeds 170,000. 
VA's criteria, it would seem, leaves little chance for sparsely 
populated States--I know; we have struggled with that in my 
State of Idaho--to have a national cemetery established within 
their boundaries, even though the service rendered by veterans 
residing in those States was, of course, national in character.
    Do you believe there should be a periodic re-examination of 
the criteria? Or do you believe there are other criteria that 
we might consider in determining location for national 
cemeteries?
    Mr. Tuerk. Mr. Chairman, I do believe the criteria need to 
be and ought to be reviewed periodically. The standard that VA 
has set for prioritizing where national cemeteries will be 
created, as you cited, is that 90 percent of veterans will be 
within 75 miles of a burial option.
    It is not my belief and it would not be my position that 
that is the final criterion that will be established for making 
site selection decisions for national cemeteries; rather, it 
was, I think, a goal that was set by the NCA back at a time 
when only 75 percent of veterans had a burial option available 
to them.
    I think it was entirely appropriate for the National 
Cemetery Administration to set a goal that could be achieved--
to hit the 90-percent number--because it gave them something to 
shoot for and it gave the Congress something to measure their 
success against. As I stated in my statement, there are 11 
cemeteries in various stages of development that need to be 
opened and will be opened during my tenure in order to achieve 
that target.
    That goal, I think, is a station along the way. When I take 
over as Under Secretary, if I am confirmed by the Senate, I 
intend to review where we will go from there, having 
accomplished that goal. There are many communities, as you 
cite, in less urban areas that don't have a burial option 
available to their veterans. There are many substantial 
cities--Buffalo, New York; Omaha, Nebraska--that don't have a 
burial site available to them. Boise fell into that category 
until very recently when last year a State cemetery was open 
there.
    Cities like these, intermediate-size cities, and more rural 
areas, the veterans there, of course, deserve the same honor as 
any veteran anyplace. I will work hard, Mr. Chairman, to make 
sure burial options are made available to more than 90 percent 
of veterans by opening the issue of how we site future national 
cemeteries, once the 11 that are on-stream are built, by trying 
to make the State Cemetery Grant Program more effective, and 
one thing that is often overlooked, assuring that cemeteries 
that are reaching their capacity are expanded so that they can 
continue to offer services to veterans in the communities they 
serve.
    Chairman Craig. Bill, thank you.
    Robert, during hearings earlier this year on VA's budget 
shortfall, the Secretary pledged that VA will provide me and 
the committee with updates throughout the year on the status of 
VA's financial condition. As the Assistant Secretary for 
Management, you will be responsible for collecting that 
information and assuring its accuracy. If you are confirmed, 
what measures will you take to ensure that the Secretary's 
pledge is fulfilled and that I and the committee are provided 
with the useful information that we must have in a timely 
fashion?
    Mr. Henke. Mr. Chairman, if I am confirmed, it would be my 
first priority to fully understand VA's budget inside and out 
and to understand the models that are used to build that 
budget. I am going to become very familiar with those budget 
models to assure myself that they predict resource requirements 
accurately and completely.
    Quite simply, I will do everything in my ability to ensure 
that the situation will not happen again, and, sir, I am aware 
that the Secretary has committed to providing regular budget 
updates, and if confirmed, I would fully expect that I would be 
closely involved in preparing those updates for him.
    I absolutely respect and understand the role of Congress in 
terms of oversight, and specifically this Committee, and I 
would expect to work closely with you and your staff on a range 
of issues.
    Chairman Craig. Well, we look forward to having you before 
the committee for all the right reasons.
    Mr. Henke. Yes, sir.
    Chairman Craig. Great.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Bill, how do you plan to adapt your managerial style as you 
shift from the legislative branch to the executive branch?
    Mr. Tuerk. I think, Senator Akaka, that I--well, I think 
your use of the word ``adapt'' is appropriate. I don't think I 
am going to change my management style, but I think I am going 
to have to adapt it. I now am privileged--or I was recently 
privileged--to lead a relatively small staff. It is a much 
larger staff that I will be responsible for down at the 
National Cemetery Administration, about 1,500 employees, and I 
will have a budget of some $320 million. Obviously, it is a 
different order of magnitude altogether.
    As I said, though, in my opening statement, I think the 
lessons learned here are adaptable to leadership in the 
executive branch and in the National Cemetery Administration. 
In fact, the situations, I think, are more similar than it 
might appear at first glance.
    First and foremost, I am leaving one quality organization 
for another, and I think that calls for a similar management 
style. As I said in my opening statement, I am not going down 
there to change a culture. I am going down there to try to 
adapt--not adapt the culture, but to steer the culture and the 
quality of the employees down there to meet new challenges. I 
think the approach will be the same. I will go down there with 
the idea of coming in to give a respectful and a considered 
review of operations. I am going to hit the road. I am going to 
learn from field managers what they need from central office, 
not what they can do to help central office. I am going to look 
for intermediate middle managers who prove that they are ready 
for growth--the same sort of things that I have tried to do 
here in terms of developing staff, empowering staff, and then 
trusting staff to execute, and, of course, making sure that 
staff is accountable for their activities.
    Senator Akaka. Thank you.
    Mr. Henke, every year we deal with budgets, and we go 
through the same battles to get VA health care the money it 
needs. This year Congress had to add an additional $1.5 billion 
in emergency funding to address the funding crisis in VA health 
care. Many of us in Congress had been pressing for more money 
for VA health care since the early part of the year.
    What can we do to assure veterans that the budget shortfall 
that came to light earlier this year does not happen again?
    Mr. Henke. Senator Akaka, thank you for that question. Sir, 
if confirmed, I assure you I am going to ask tough questions 
and work tirelessly to ensure the soundness and the validity of 
VA's budget. As you know well, sir, as the Chief Financial 
Officer, my job would be to ensure that the Secretary has an 
accurate, sound, defensible budget; also to ensure that during 
the budget execution process during the year, that he has 
timely, relevant, and reliable information on which he can make 
important decisions.
    Sir, I would simply say that I want to ensure that the 
budget and the resources that are entrusted to us by the 
American people and by this body are executed properly and 
fully. I will work hard to ensure that the Department's budget 
provides appropriate resources for VA's priorities.
    Senator Akaka. Robert, in your opening statement, you 
pledged to adopt Secretary Nicholson's philosophy that he 
outlined during his confirmation hearing. The first point in 
this philosophy is that, ``Veterans should have access to the 
best available health care in the most appropriate clinical 
settings.''
    I wholeheartedly agree with this point as it reflects an 
understanding that different areas of the country require 
different methods of delivery for health care services. I think 
that my Neighbor Islands Health Care bill epitomizes this 
philosophy. We had a hearing on this legislation in June. To 
date, we have not received VA's views. I hope you and others at 
VA will look at it closely.
    Mr. Chairman, my time has expired. Thank you.
    Chairman Craig. Danny, thank you very much.
    Senator Obama.
    Senator Obama. Thank you very much.
    All of you are to be congratulated for terrific 
professional experience. I think our questions are sort of 
geared to trying to figure out how you take excellent 
experience in your previous jobs and whether and how they apply 
to the current job. That is what I am going to focus on.
    Let me start with you, Mr. Molino. I know that you are 
aware that Secretary Nicholson briefed this committee on the 
work the VA has done in the wake of Hurricane Katrina. The VA 
is really to be congratulated on its effective evacuation 
process. That, unfortunately, was not the case in all the 
institutions down there. As we know, tragically, nursing home 
residents and others got caught in that tragedy.
    You have been nominated to be Assistant Secretary for 
Policy, Planning, and Preparedness, and one of the questions 
that I have is: In your current job in the Department of 
Defense, do you have any emergency preparedness experience? If 
not, that does not mean you cannot learn it, but I would be 
curious about how you are thinking about that process or 
procedure, because conceivably these are unfortunately the 
kinds of issues that could arise again in the future.
    Mr. Molino. Certainly, Senator. Thank you for the question.
    My current position does not afford me the opportunity to 
exercise any authority over emergency preparedness or reaction 
to hurricanes or any kind of natural or manmade disasters. It 
is a complex organization over which I apply management with a 
fairly substantial budget. It requires the building and the 
maintaining of coalitions with organizations within and outside 
of the Department, which I think, from the briefings I have 
received thus far, was key to the success that the VA enjoyed 
in the area struck by the hurricanes. The pre-existing 
agreements that were executed properly was fundamental. It was 
not so much the management of the actual disaster, much like 
the Director of FEMA, but it was the execution of pre-existing 
arrangements and execution of plans.
    In that light, my 20-year career on active-duty lends well 
to this job and that part of the job, because planning, 
executions of plans, long-range, short-term planning, the 
ability to coordinate within the organization and among 
organizations is also important. I think I would rely more on 
the experience I garnered in uniform with the 20 years on 
active duty to give me experience in this regard.
    The other thing that I would say that you alluded to is the 
VA is getting very good grades for how it performed in this 
area, and what I would be interested in doing is not crowing 
about it just yet, asking all the hard questions and making 
sure that this was not a fluke. That this, in fact, was the 
product of a good process, and then I would share best 
practices with other organizations. We can get better, for 
sure, but if they can learn from our good planning, we would 
like to do that as well.
    Senator Obama. I thank you and your family, by the way, for 
your service, and we hope your son gets home safely soon.
    Mr. Molino. Thank you. I join you in that hope.
    Senator Obama. Absolutely.
    Mrs. Mondello, your son looks very fine in his suit.
    [Laughter.]
    Senator Obama. Looking very spiffy for mom today.
    Mrs. Mondello. He looks like a Senator.
    Senator Obama. He does. He doesn't live in Illinois, does 
he? I just want to make sure.
    [Laughter.]
    Senator Obama. You have extraordinary experience, I think, 
on the communications side of the ledger, and so I won't focus 
on that. It just strikes me that you are extremely well 
prepared for a substantial part of your portfolio.
    I did notice--and, you know, it raises some interesting 
questions organizationally--about the fact that you also have 
programs in your portfolio, as I understand it, for homeless 
veterans. That is a very serious problem, particularly in the 
city of Chicago and other urban areas. You see huge rates of 
homelessness and a constant concern is whether we are caring 
for them effectively, helping them to find more stable living 
situations, jobs, transitions. Some of them are suffering from 
substance abuse so there are interactions with the VA health 
care system.
    Can you just tell me a little bit about--I won't try to put 
you on the spot and ask you, you know, have you done all kinds 
of work on homeless programs. I am interested in figuring out 
how on things like international initiatives or homeless 
programs, how you anticipate getting up to speed, and 
organizationally how you think about devoting those resources. 
Maybe you compensate for your lack of experience in those areas 
in terms of staffing. If you could just talk about that a 
little bit?
    Mrs. Mondello. Yes, sir. I think first I would like to say 
that in my time at the department and here in the Senate as 
communications director. I wasn't necessarily confined to work 
with just press and the media.
    Senator Obama. I understand. My communications director 
would insist that he is the most important person in my office.
    [Laughter.]
    Mrs. Mondello. I would probably agree with that statement 
of your staff. I was part of the strategic planning and 
decision-making process throughout the organization, and that 
included working with a variety of constituents, constituent 
organizations, national organizations, State organizations, and 
both the State and local government. As part of the portfolio 
of this office, as you mentioned, it falls under 
intergovernmental.
    I think there is a lot of experience that I can bring, 
leadership-wise, management-wise, and in particular, I would 
just like anecdotally to mention some of my work at the 
Department of Education. I didn't do press per se. I actually 
looked at all the program offices, what services they provided, 
how they did it, how they executed, and did somewhat of--I 
don't like to use these words around these folks, but, you 
know, audit and was somewhat of an ombudsman, lower case. It 
gave me great insight into the variety of issues as well as 
some learning the intricacies of those issues, and also how you 
can execute and carry out those particular missions well.
    The issue of homelessness, we also have faith-based and 
community initiatives; we also work with all the national 
organizations, and State and local governments.
    If confirmed and I go over to VA, it is a top priority of 
mine to see exactly how they are carrying out their particular 
missions. For example, the Office of Consumer Affairs is under 
Intergovernmental Affairs, and I have asked for a briefing on 
that because I want to know not just the mechanics of what they 
do, but what are the results? What is the satisfaction from our 
customers, from the consumers themselves? Are we actually doing 
the job? Are we doing it appropriately?
    What I have discovered a lot of times in an agency is that 
that follow-up gets left behind, and we need to ensure, 
particularly--the same thing with our homeless program. I have 
not met the staff. I haven't been over to VA yet. I want to 
actually meet the staff that works with the homeless program. I 
think that is critical.
    I will be very happy to share those initial results and 
findings with you and your staff.
    Senator Obama. Well, my time is up. I appreciate your 
response. I congratulate all of you. I know that we are short 
on time because we have to be seated for the Judge Roberts 
nomination.
    If you can just indulge me, Mr. Chairman, and just let me 
make a statement on the homeless situation, it is a shameful 
thing that the rates of homelessness among veterans are by 
several multiples higher than the general population. It is 
shameful. When I walk or drive through the Nation's capital and 
I see the number of homeless individuals in our capital, a 
substantial percentage of whom are veterans, it is 
embarrassing.
    I would just urge you, Mrs. Mondello, to consider this 
particular aspect of your job extremely important, and I am 
happy to see any kind of innovation that works. I recognize it 
is not the VA's responsibility alone. You have to work with 
other local and State agencies to make it work. This is 
something that really I think has to be dealt with.
    Mrs. Mondello. I agree, Senator.
    Senator Obama. Thank you.
    Chairman Craig. Thank you, Senator Obama.
    George, one of VA's strategic goals is to restore veterans 
with disabilities to the greatest extent possible. Yet 
according to a May 2005 Inspector General's report, there is a 
tendency for veterans to decrease or cease medical health 
treatment once they have attained a 100-percent disability 
rating for post-traumatic stress disorder.
    Do you yet have any sense of whether that finding would 
warrant follow-up studies by the Inspector General or how we 
get our hands around a figure like that--that is really very 
troubling to me? You are cared for until you are classified.
    Mr. Opfer. I am somewhat familiar with that report, having 
read it and spoken to some of the staff in the Office of 
Inspector General. I do believe that it is going to require 
additional work by the Office of Inspector General to follow up 
on some of those issues which came from that report.
    There were a number of recommendations that have been 
accepted by the Department. If I am confirmed, I would 
personally get involved in how those recommendations are being 
implemented and what effects it would have on the issues which 
are raised by the IG report.
    I do understand that the IG's office now is currently 
reviewing other options, Mr. Chairman, of what additional work 
should be done by the IG's office in bringing some of the 
issues relating to this very serious problem. If I am 
confirmed, I would get involved with that. I would like to meet 
with yourself, the Committee Chair, and other Committee Members 
and staff as well as the Secretary and senior members of the 
Department, to try and come up with where should the IG's 
office focus its resources in trying to bring some independent, 
objective reviews of this issue so that policymakers can make 
the appropriate decisions.
    I think there is a lot more work that the IG's office can 
do, valuable work to at least bring issues to the policymakers 
to make those decisions. If I am confirmed, I pledge that we 
will put adequate resources to try and come up with some 
additional reports in that area.
    Chairman Craig. Okay. During the past year, concerns have 
been expressed to my staff about some actions taken by VA's 
Office of Inspector General. For example, some private sector 
suppliers have noticed that VA's Inspector General auditors are 
increasing their involvement in routine contract negotiations 
on behalf of the Government, an action that goes beyond their 
traditional role of pre-award advice.
    Do you believe those activities are outside the proper role 
of the Inspector General's office? Do you believe that practice 
should be re-examined?
    Mr. Opfer. I am aware that the IG's office has what they 
call a contract audit group that has been performing this type 
of pre-awarding of contracts for approximately 15 years. They 
don't actually negotiate the contract. They provide assistance 
to the contracting officers in the Department, and the IG's 
role has been reviewing that to see if they are complying with 
the Federal acquisition requirements.
    It is my understanding that these pre-contract awards and 
reviews have recovered over $1 billion in the 15 years that 
they have been doing this, and that GAO has looked at 
specifically the VA IG's office and it is listed as one of the 
best practices in doing that type of work. If I am confirmed, I 
would look at it to make sure that we are staying within the 
mandate of the IG Act in performing that type of function.
    Chairman Craig. Well, it has come to our attention, and I 
think you are right in suggesting it would certainly warrant 
your attention for review purposes.
    Well, there are other questions I have to ask. We are all 
but out of time. They have asked us to be to the floor.
    Danny, do you have any other questions?
    Senator Akaka. Mr. Chairman, I do. I will submit them for 
the record.
    Chairman Craig. Okay.
    Senator Akaka. Thank you.
    Chairman Craig. I have a few more we will submit.
    Senator Akaka. Mr. Chairman, also may I add that I would 
urge the committee to move quickly to discharge these nominees 
to the Senate floor for final action.
    Chairman Craig. I thank you very much for that sensitivity 
of time, and when I think of all of you here before us who 
should be down there working at this moment, that sensitivity 
pushes us on. Bill clearly understands, and some of you who 
have staffed before may understand. This committee may convene 
in a small room off the floor of the Senate at some time next 
week for those purposes. We are going to take a look at that 
because of tight schedules and because of the shortness of next 
week. It is my hope that we can move you very, very quickly 
because I know the Secretary needs you down there, the 
Department needs you, and we will get you there.
    Let me again thank you all very much for your willingness 
to serve and, again, I congratulate you on your nomination and 
the demeanor that you have brought before the committee. I am 
confident you will bring honor to the Department. We would 
expect nothing less.
    Thank you all very much, and the committee will stand 
adjourned.
    [Whereupon, at 11:19 a.m., the committee was adjourned.]
  

                                  <all>

</pre></body></html>
